<html>
<title> - [H.A.S.C. No. 115-20] America's Role In The World</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                
                         [H.A.S.C. No. 115-20]

                      AMERICA'S ROLE IN THE WORLD

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 21, 2017


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                             __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-086 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="98ffe8f7d8fbedebecf0fdf4e8b6fbf7f5b6">[email&#160;protected]</a> 


                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          TOM O'HALLERAN, Arizona
RALPH LEE ABRAHAM, Louisiana         THOMAS R. SUOZZI, New York
TRENT KELLY, Mississippi             (Vacancy)
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                  Robert L. Simmons II, Staff Director
              Elizabeth Conrad, Professional Staff Member
                      William S. Johnson, Counsel
                         Anna Waterfield, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Albright, Hon. Madeleine K., Former Secretary of State...........     3
Hadley, Stephen J., Former National Security Advisor.............     5

                                APPENDIX

Prepared Statements:

    Albright, Hon. Madeleine K., joint with Stephen J. Hadley....    52
    Smith, Hon. Adam.............................................    50
    Thornberry, Hon. William M. ``Mac''..........................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    63
    Mr. Franks...................................................    63
    Mr. Langevin.................................................    63
                      
                      
                      AMERICA'S ROLE IN THE WORLD

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Tuesday, March 21, 2017.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    So far this year, the committee has examined the state of 
the strategic environment in the world around us as well as the 
state of the U.S. military. We have examined specific security 
challenges such as cyber and nuclear deterrence. We have, of 
course, a lot more work to do before we mark up this year's 
defense authorization bill.
    But today we step back and consider the bigger picture. The 
size and characteristics of the United States military should 
be related to the role we expect the United States to play in 
the world, which is the topic of today's hearing.
    Let me read the opening words of the 2014 National Defense 
Panel report, and for members who were not here at the time, I 
might mention that the National Defense Panel was led by former 
Secretary of Defense William Perry and retired General John 
Abizaid and consisted of a bipartisan group of eight proven 
national security leaders.
    They started their report with the following: ``In the 
first half of the 20th century alone, the world experienced two 
devastating world wars, the rise of the Soviet Union as a 
totalitarian menace, and the advent of the nuclear age. This 
grim history and the threats to America and our interests 
following World War II prompted America's leaders to employ our 
extraordinary economic, diplomatic, and military power to 
establish and support the current rules-based international 
order that has greatly furthered global peace and prosperity 
and ushered in an era of post-war affluence for the American 
people.''
    National Defense Panel goes on: ``Since World War II, no 
matter which party has control of the White House or Congress, 
America's global military capability and commitment has been 
the strategic foundation undergirding our global leadership,'' 
end quote.
    There have been debates in both parties questioning whether 
the role America has played over the last 70 years should be 
reduced or otherwise changed. Few witnesses have thought more 
about these issues or could provide more thoughtful insights 
than those we are privileged to welcome today. Before turning 
to them, let me yield to the ranking member for any comments he 
would like to make.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 49.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman, and I appreciate you 
having this hearing and having two such distinguished witnesses 
to testify and help us develop an understanding of our national 
security strategy and of where we are going in the world. I 
think it is, you know, without question true at this point that 
the world order that existed for, you know, a long time post 
World War II is stressed and requires some changes.
    We need to figure out what role we are going to play in 
that, how we are going to work together with allies, and also, 
frankly, a lot has changed since World War II ended. You have 
had the rise of a great many powers. How does that change how 
we use the international organizations that have served us so 
well, how we continue to build partnerships that will help us 
meet national security. There is a lot that can be said about 
this, but the big thing is we need changes, we need a new 
strategy, we need a new idea of how to approach this.
    The only thing that I will say before yielding back is that 
I think this needs to be a comprehensive and not just military 
strategy. Foreign aid, development, these matter in terms of 
building the types of relationships that we are going to need 
to build in order to protect ourselves and our interests and 
the rest of the world, and hopefully work towards a more stable 
and peaceful globe, and that is in our best interest.
    But you know, one thing is clear. There is a lot of powers 
out there, China, Russia, India, Brazil, that have risen up and 
are going to play a greater role in the world than they did 
from much of that post-World War II era. How do we work into 
that greater role that they are going to play? What 
relationships do we set up to accommodate it?
    It is a complex and difficult question and one I hope we 
will make some progress on answering today. I look forward to 
the testimony and to the questions.
    I yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 50.]
    The Chairman. We are very pleased and grateful that each of 
our witnesses have joined us today. Of course, former Secretary 
of State Madeleine Albright, former National Security Advisor 
Stephen Hadley, there is much more to their resumes before and 
since those jobs and currently, but members have that fully in 
front of them.
    I understand you-all have a joint written statement, and 
without objection, that will be made part of the record, and we 
would be pleased to hear any oral comments you-all would like 
to make.
    Madam Secretary.

STATEMENT OF HON. MADELEINE ALBRIGHT, FORMER SECRETARY OF STATE

    Secretary Albright. Thank you very much, and Chairman 
Thornberry, Ranking Member Smith, distinguished members of the 
committee, thank you very much for the opportunity to testify 
before you this morning.
    And I am very honored to appear alongside my good friend 
Stephen Hadley, who is one of the most brilliant and principled 
people that I know.
    We have worked together on a number of foreign policy 
initiatives in the years since we left office and most recently 
co-chairing the Atlantic Council's Middle East Strategy Task 
Force. We have done this not only because we happen to like 
each other but also because we both believe fervently in the 
importance of a bipartisan foreign policy.
    We know this committee has always been bipartisan in its 
approach, and you have had your share of vigorous debates, but 
you have been able to come together, compromise, and do what is 
right for our country and our men and women in uniform. Steve 
and I have also had our share of debates, and it is no secret 
that I was critical of some decisions made by the Bush 
administration. I suspect he had some disagreements with the 
Clinton administration, which is fine because everybody knows 
we were perfect.
    But whatever arguments we have had in the past, we are in 
vigorous agreement on the defining question before us today, 
the question of America's role in the world. We both believe it 
is profoundly in America's greatest interest to be engaged 
globally because our security and prosperity at home are linked 
to economic and political health abroad. This mindset is what 
led our country to construct a system of international 
institutions and security alliances after World War II, as both 
the chairman and the ranking member said. It is why Presidents 
of both parties have worked to promote peace, democracy, and 
economic opportunity around the world.
    The system America built has not been perfect, but it has 
coincided with a period of security and prosperity unmatched in 
human history. And while many nations have benefitted from the 
investments America has made in global security and prosperity, 
none have benefitted more than the United States.
    We recognize that today this system is under stress in 
different ways from China, Iran, North Korea, and a resurgent 
Russia. Meanwhile, the value of our global engagement is under 
question at home. Many Americans feel that their lives have 
been threatened rather than enhanced by it. This popular 
dissatisfaction with international trade, technological change, 
and the facelessness of globalization, needs to be understood 
and acknowledged, but so do the consequences of disengagement.
    For while it is comforting to believe that we can wall 
ourselves off from the ailments of the world, history teaches 
us that whenever problems abroad are allowed to fester and 
grow, sooner or later they come home to America. Isolationism 
and retreat do not work. We know because we have tried them 
before.
    I am sure this will come as a surprise, but I am slightly 
older than most of you, and also, I was not born in the United 
States. Instead, I entered the world in Czechoslovakia only a 
year before the Munich Agreement sacrificed my country's 
sovereignty in order to appease Hitler.
    In my early years, I saw what happened when America was 
absent as it was at Munich and what happened when America was 
present as it was during World War II when I lived in London 
during the Blitz. The lesson I drew is that terrible things 
happen when America is not engaged. We are not an ordinary 
country that can just put our narrow interests first and forget 
about the rest of the world. We are the indispensable nation, 
and it would be terrible to pretend otherwise.
    But we should also remember that there is nothing in the 
word ``indispensable'' that means alone. We want and need other 
countries to have the desire and the capacity to work alongside 
us in tackling global challenges.
    The testimony that Steve and I have submitted for the 
record makes a bipartisan case for continuing America's global 
leadership in partnership with our allies while acknowledging 
that the international order needs refurbishment as do most 
humans and institutions after 70 years of age.
    Drawing on the task force's work, we also outline a new 
approach for dealing with the chaos and disorder of the region. 
In a moment, Steve will provide a brief overview of the 
strategy we propose, but since we are very much looking forward 
to your questions, I would just make a few points before 
turning to him.
    First, decades of experience have taught us that in order 
for America to engage effectively in the world, we need to be 
able to use every tool in the national security toolbox. This 
includes diplomatic pressure, economic leverage, technical 
assistance, and the threat of the use of force. Any one of 
these tools is ineffective on its own, which is why Steve and I 
are opposed to the steep and arbitrary cuts to the State 
Department and international affairs budget which were proposed 
last week.
    Our diplomats work every day at considerable sacrifice to 
ensure that the United States has the superb representation 
that our interests demand and the civilian capabilities our 
military needs in order to achieve its mission. We cannot have 
that on the cheap.
    We must invest the resources necessary to make sure that 
our diplomats succeed, and this is especially true today when 
our personnel are often in danger in conflict areas, when our 
diplomats face criticism from would-be autocrats who do not 
like their advocacy for democracy, American values, and 
American nongovernmental organizations. It is your 
responsibility as Members of Congress to ensure that all of our 
instruments of national power are properly funded, and so I 
hope that you will join us in rejecting these unwise cuts. And 
I would like to thank the chairman and the ranking member and 
the members of this committee who have already spoken out about 
this.
    As we consider America's role, another point worth 
emphasizing is that we need to be clear, not only about what 
our Nation is against in the world, but also of what we are 
for. We cannot and will not give in to those who threaten us or 
who conspire to kill our citizens but neither can we allow any 
enemy to cause us to abandon the ideals that made America a 
symbol of liberty and justice.
    For more than 200 years, our country's strength has come 
from its inclusiveness. You cannot tell an American by his or 
her last name. You all know me as Madeleine Albright, but in 
fact my name is Marie Jana Korbelova. America has always been 
able to lead the world because we spoke and listened to people 
from vastly different cultures. In today's era of 
interdependence, these are traits that we must retain, and this 
hearing comes at a time of deep political division at home and 
heightened instability abroad.
    In this pivotal moment, there must be a national debate 
about how and why America engages in the world. Congress has a 
vital role to play in convening that debate, given your 
representative nature and the responsibilities given to you by 
Article I of the Constitution, which I read to my students 
yesterday at Georgetown and was delighted to see Article I 
section 8 embodied in a tablet in your room. This is the time 
for Article I.
    So let me close by thanking this committee for convening 
this hearing and by urging you and your colleagues to continue 
working together in a bipartisan way to explore these issues.
    Thank you so very much for your attention.
    [The joint prepared statement of Secretary Albright and Mr. 
Hadley can be found in the Appendix on page 52.]
    The Chairman. Thank you, ma'am. Mr. Hadley.

 STATEMENT OF STEPHEN HADLEY, FORMER NATIONAL SECURITY ADVISOR

    Mr. Hadley. Good morning.
    Chairman Thornberry, Ranking Member Smith, other 
distinguished members of this committee, thank you for the 
opportunity to be with you this morning.
    One of the great privileges I have enjoyed since leaving 
the Bush administration has been the opportunity to work with 
Madeleine Albright on bipartisan solutions to today's foreign 
policy problems, and I am honored to have the chance to appear 
with her again here today.
    Madeleine has well summarized our views as set out in our 
more detailed written testimony. Let me just elaborate on three 
points, if I might.
    First, the state of the U.S.-led rules-based international 
order. As Madeleine so eloquently pointed out, for 70 years 
since the end of World War II, the centerpiece of U.S. grand 
strategy has been to build and lead an international order 
composed of security alliances, international institutions, and 
economic openness to advance the causes of freedom, prosperity, 
and peace.
    But this international order is under enormous strain 
because of the return of great power rivalry with Russia 
challenging the international order in Europe, and China 
challenging it in Asia, chaos in the Middle East spreading 
disorder throughout the region and beyond, increasingly 
disruptive and accelerating technological change, popular 
dissatisfaction in the West with globalization and the economic 
and political status quo, and disillusionment in the United 
States with American global leadership.
    Madeleine and I would argue that the reason for the current 
chaos, conflict, and disorder in the world today is precisely 
the breakdown of the U.S.-led international order in the face 
of these challenges. We believe a U.S.-led global order is 
necessary to provide a framework for effectively dealing with 
these threats and to advance the peace and prosperity of the 
United States as well as our friends and allies around the 
world. But at the same time, the order needs to adapt to 
changes in the international environment and to take account of 
the real grievances and concerns expressed by American voters 
in the last Presidential election.
    It is in the interest of the United States to lead this 
effort, which presents a real opportunity for the Congress to 
work with the Trump administration and for Republicans and 
Democrats to come together on this common project. Congress can 
begin the process by conducting a national debate on what such 
an international order would look like through a series of 
structured hearings. These need to be held not just in 
Washington but throughout the country to ensure that 
congressional deliberations reflect the views of all Americans.
    A good place to start the debate would be a recently issued 
Brookings Institution report written by a bipartisan group of 
foreign policy experts, including myself, entitled, ``Building 
Situations of Strength.''
    Second, let me say a word about the Middle East, if I 
might. This new international order and American leadership 
will be sorely tested in the Middle East. As described in our 
Atlantic Council Middle East Strategy Task Force report, the 
goal of U.S. strategy in the region should be to help change 
the trajectory of events there toward a Middle East that no 
longer spawns terrorism and refugees, is not a drain on 
international resources, and does not, through instability and 
political vacuums, aggravate great power and regional 
competition. To achieve this goal, the U.S. approach to the 
Middle East should be informed by a set of guiding principles 
that reflect the new reality of the region since 2011.
    First, the old order is gone and it is not coming back. The 
region itself should assume the principal responsibility for 
defining a new order that will offer the people of the region 
the prospect of a stable and prosperous future, free from both 
terrorist violence and governmental oppression.
    Second, disengagement is not a practical solution for the 
United States or the West. Disengagement will only allow the 
region's problems to spread and deepen unchecked, creating 
further threats. But the role of the West must be different 
from what it has been in the past. Rather than trying to impose 
its will or dictate how countries in the region should behave, 
outsiders should support and facilitate the positive efforts of 
people and governments in the region.
    Our report outlines a two-pronged strategy. The first prong 
involves outside actors helping partner countries in the region 
to wind down the violence, starting with the civil wars. This 
means containing the spread of the current conflicts and 
accelerating diplomatic efforts to resolve them while 
addressing the staggering humanitarian crisis they have 
generated, but it will also require increased diplomatic and 
military engagement from the United States and its friends and 
allies, something that we are already beginning to see from the 
Trump administration.
    The second prong, which must be pursued simultaneously and 
in parallel with the first, seeks to support now those efforts 
in the region that will create the social basis for long-term 
stability, prosperity, and peace. This means supporting the 
bottom-up citizen-based entrepreneurial and civic activity that 
is already occurring throughout the region. It also means 
encouraging those regional governments that are facilitating 
these efforts by their citizens and that are investing in the 
education and empowerment of their people, and addressing the 
societal, economic, and governance issues that are key to 
future peace and success.
    Finally, let me say a word about the significance of this 
last point for the budgetary guidance recently issued by the 
administration. Madeleine and I agree that we must continue to 
upgrade and enhance our Nation's military capabilities and 
deterrent power. There is no debate on that. But to accomplish 
the second prong of our Middle East strategy requires the 
nonmilitary civilian instruments of our national security 
toolkit: diplomacy, trade and investment, development 
assistance, reconciliation and peace-building skills, and sound 
political advice. These are precisely what have been targeted 
in the administration's recent budget guidance.
    The administration has made destroying ISIS [Islamic State 
of Iraq and Syria] a top priority. Military forces can push 
ISIS out of Iraq and Syria and other territory it controls, but 
ISIS will return in an even more vicious and virulent form if 
those liberated lands do not enjoy some measure of political 
stability, societal reconciliation, and economic progress. And 
such progress requires the very nonmilitary elements of 
national power targeted by the recent budget guidance.
    Gutting these institutions will make America less safe, 
undermine the success of our military, and open the door to 
terrorists. And if you don't believe us, then ask the military 
men and women who have served in Iraq, Afghanistan, and other 
conflict zones. They will tell you that they cannot succeed in 
the military mission without these civilian capabilities. 
Failing to win the peace, after so many have fought so bravely, 
would be an insult to the memory of those who laid down their 
lives in service to our Nation.
    Thank you again for this opportunity to testify before you.
    The Chairman. Thank you both for being here.
    And Madam Secretary, I appreciate your reflections on your 
personal experience and how they relate to this topic. They not 
only are a credit to you but a credit to the country if you 
think about the journey you have taken.
    Madam Secretary, a couple of years ago you testified on the 
other side of the Capitol and said: The greatest danger is 
becoming so intent on enjoying our freedom that we neglect the 
responsibility to defend it.
    And I would want to invite each of you to reflect a little 
more on the role, the size, the shape of the United States 
military, what it should be in order to defend our freedom, in 
order to play its appropriate role in the sort of world that 
you all have outlined.
    And I appreciate your point about the proposed cuts in 
other agencies of government, which as you know I share; but as 
we think about the size, characteristics of the United States 
military in this rapidly changing world, how should we think 
about that? What are the things that we ought to look for and 
try to help shape?
    Secretary Albright. Let me just take a crack at it.
    Thank you very much. And I do think that we have to 
recognize the fact that the role of the military has adjusted 
over the last 70 years. What I have found very interesting is 
that we have moved away from the concept of two-and-a-half wars 
in terms of that there are a variety of different kinds of 
conflicts out there. Often that it is hard to identify the 
enemy, that they are many--a variety of conflicts that erupted 
after the end of the Cold War, and that they really are 
different, and that we have to adjust our military to deal with 
that.
    I do think we also have to pay attention to the third 
offset to kind of look at how we look at new technology, how we 
deal with the cyber aspect, and just basically to understand 
the modernization of it.
    I have had the privilege of serving on the Defense Policy 
Board, and have spent quite a lot of time over at the Pentagon, 
and I have the greatest admiration for our military and the 
civilians that are a part of it.
    But I do think that your job here is really one that is so 
crucial in terms of analyzing what the force needs to look 
like, the adaptability of it, what the weapons systems are that 
need to be there, and then how in fact we deal with the 
asymmetrical threats that are out there. And those are evident 
whether one looks at what is happening in the Middle East or 
what we are about to see in Asia, and then the asymmetrical 
aspects of what the Russians are doing vis-a-vis Central and 
Eastern Europe and the Baltics and what they have done in 
Ukraine.
    So I think it is a period where there needs to be a lot of 
exploration and openness in terms of living in a different era 
with different kinds of conflicts that require a different 
force, and I very much liked reading General--Secretary Mattis' 
memo that came with the skinny budget that explained that 
readiness was one of the very important parts, and strategy was 
important.
    The Chairman. Mr. Hadley, and just to further that for a 
second, we have had testimony that half the planes in the Navy 
can't fly; Army readiness is not where it should; Air Force, 
smallest, oldest it has ever been. Do we have the sort of 
credibility our military needs in that sort of world?
    Mr. Hadley. I think we clearly don't. We have got to fix 
that readiness problem, but I think we also, as this committee 
well understands, the challenge our military face is sort of 
like no challenge that any other military in the world faces. I 
always am amused where people say: Well, we spend more on 
defense than the next 7, 9, 11, whatever the countries 
combined. Well, that is because we have a national security 
challenge like no other nation in the world.
    If you think about it, we have to simultaneously modernize 
and maintain our nuclear infrastructure and weaponry, which is 
in some sense of decline. We have got to deal with the military 
innovations and improvements that China and Russia have been 
pursuing for the last decade or two while we have been focused 
heavily on the Middle East. We have to make sure we don't lose 
those capabilities we have learned in Iraq and Afghanistan and 
elsewhere.
    We need to find how to aid and support other countries so 
that they can take more responsibility for their own defense 
and we can do less. That is itself an art. And we have got to 
deal with the burgeoning personnel costs of our military while 
still keeping faith with our men and women in uniform.
    That is a lot of stuff to do, and I think one of the 
things, Mr. Chairman, we talked about before the hearing was 
there is an issue of risk management and prioritization that is 
required and it has really got to start with some sense of 
national strategy. What is the national strategy of this 
administration, how does that translate into a defense 
strategy, and then what does it mean for where we are going to 
put our resources? That is where it has to start.
    And I would hope, as we talked about, one of the things 
this committee could do would be start a structured set of 
hearings on what is the national security strategy, have 
administration officials come forward and testify before you in 
public session and private session. I think it will stimulate 
exactly the kind of thinking we need to have within the 
administration to get that national security strategy right and 
in order to give the committee a framework as you look at what 
to do with the resource and budgetary aspects.
    The Chairman. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Following up a little 
bit on the budget thing. The thing that worries me about it is, 
you know, everyone makes a very passionate argument for all the 
areas that need more money, you know, but at the same time we 
have a $20 trillion debt, and forgive me, I forget what the 
deficit of that is these days, I think it is in the $650 
billion range and projected to go up, and you know, when you 
are dealing with the discretionary budget, it is a trillion 
dollars, you know, very small portion of the overall, like 
maybe 25 percent, 30 percent of the overall budget.
    So you know, if we talk about, well, gosh, our military has 
all these needs, and we hear about it in this committee all the 
time, some of it the chairman alluded to, more I am sure will 
be said later, you know, really even the $603 billion that the 
President proposed or the $640 billion that I gather the 
chairman and Senator McCain are going to propose, I mean, that 
doesn't get us to where President Trump said he wants to be. 
And if you are doing a dollar-for-dollar thing, my goodness, we 
may as well just get rid of the discretionary budget at that 
point.
    And as we have heard, forget about the domestic needs for 
the moment, there are national security implications in the 
nondefense discretionary budget, that is the State Department, 
Homeland Security, foreign aid, development assistance, which 
is all part of our plan.
    So I guess I don't see any way to square this circle, you 
know, except to say, look, we have got to spend less money and 
therefore we have to adjust our strategy. Am I wrong about 
that, or can we keep on fantasizing that we are going to have 
more money than we actually are and develop a strategy that, 
frankly, leads us to the place that we are at, which is if you 
have the strategy that has all these grandiose ambitions, then 
you get to the reality of you can't spend the money for it, so 
half your airplanes don't fly, so your readiness is down, you 
know, all of these things happen when we give our military a 
larger mission than they can accomplish. Is there a way to 
shrink that mission, in your viewpoint?
    Because if you look at the Defense Department guidance, if 
you at their projections for what it is our military is 
supposed to be able to do, you know, I am just pulling this 
number off the top of my head, but you are looking at a budget 
of 7-, 8-, 900 billion, you know, not 603 or even 640.
    So is there another way to look at this and say, you know, 
we can adjust our national security strategy where the Defense 
Department is concerned and spend less money? Is there any area 
in there where you could see for that to happen?
    Mr. Hadley. I think you are right. It has to start with 
strategy, and one of the problems about strategy is everybody 
says: Well, you know, say what are our priorities, and then in 
the administrations, you always come up with priorities, you 
know, one through eight, and you think, well, seven and eight 
don't really matter until something happens in strategy seven 
and eight and--on issues seven and eight. They are on the front 
page of all the papers and in the social media and everybody 
asks: What are you doing about it?
    Mr. Smith. I think the number is actually higher than 
eight, and that is part of the problem.
    Mr. Hadley. Right, right.
    Mr. Smith. In security we seem to have like 25 top 
priorities.
    Mr. Hadley. So I think the only way to do it is, one, a 
sense of strategy, which leads to prioritization, and secondly, 
you know, we always start with the threat assessment, but you 
don't have to meet every threat. What you need to do is a risk 
management. Some threats, you are going to focus on; some 
threats, you are going to say that the risk of their happening 
is acceptable.
    These are very difficult decisions because once they happen 
and the threats present, everybody is sort of asking what are 
you doing about it and why was it number 7 or 8, or 19 and 20, 
when it should have been 1 or 2? So it is not an easy problem, 
but I think it has to begin with a sense of strategy and sense 
of priority.
    You have to fix the readiness. There is no point in having 
the forces if they are not ready to deploy, and that is--and 
you know, paper tigers are not good for deterrence and they are 
not good for military operations, so you have to fix that.
    I think President Trump is right, allies need to do more, 
and we need to be developing the capabilities of our high-end 
allies and those allies that are more dealing with the problems 
of terrorism so they can take more responsibility for itself.
    The model of what we are doing in Iraq and Syria is 
basically, I think, the right model, and that is what we have 
to pursue and that is what we have to get good at. I think also 
we need to have a different view about innovation. Innovation 
has been used really to increase performance. I think we have 
got to find a way to use innovation to cut costs. Innovation 
not just in technology but how we operate the force that has an 
eye towards reducing cost and making it more effective.
    But I don't--you know, and I am not a budget guy and I am 
not an economist. I just don't see how you square the circle 
for what we need to do with defense to not gut the nonmilitary 
elements of the national security toolkit, to still pursue 
these nonmilitary discretionary items and meet our budget 
requirements without doing something about entitlements. That 
is where the money is.
    And I just think it is difficult, it is politically 
difficult, politically difficult for the administration given 
what they campaigned on; but I don't see any way around it 
without getting some of the money out of the entitlements while 
still keeping faith with Americans and particularly those 
Americans that are most dependent on those programs.
    Mr. Smith. Thank you.
    Madam Secretary, did you want to comment.
    Secretary Albright. Let me say I worked for Ed Muskie as 
his chief legislative assistant when the budget process came 
into place. It was the first time that the Budget Committee got 
together and how it worked, and I think that the very important 
part is to remember how many functions there are in the budget 
and the fact that there are ways to also create revenue. I do 
think that that is something that needs to be looked at.
    It is a privilege to live in this country, and paying taxes 
is one of them, and I do think that that has to be looked at. 
And I do think that personally I wouldn't change our mission. 
As I said earlier, the United States is the indispensable 
nation but not alone, and obviously I agree with Steve in terms 
of the way that we have to get our allies to help us. It is a 
total thing, I think, in terms of whether we threaten them and 
kind of act as if they owe it to us. We owe it to each other; 
but that is a point that has to be made.
    I, as part of my discussion really, I don't want to see the 
U.S. withdraw, and we do need to be ready, and so it is a 
question of balancing that but also looking at what the revenue 
stream can be. And I think part of the problem that we are 
seeing is that all of this is taking a long time, that the idea 
of what is happening in terms of tax reform along with the 
health packages and all that is going to take some time, and in 
the meanwhile, you all have to begin to look at what the 
defense budget looks like.
    Mr. Smith. Okay. A couple of observations, and then I will 
yield back the time.
    First of all, yes, I mean, more revenue is certainly an 
option, and I understand campaign promises, but all of the 
campaign promises that the administration made, they don't add 
up, so something has got to give, and that will be one 
suggestion.
    And also, partnerships are so important to what we do. You 
know, when you look at what we are doing in Southeast Asia, a 
lot of people aren't aware of how much Japan and South Korea 
contribute to our presence there. You know, in dealing with 
Somalia, we have had great allies in Ethiopia, and Kenya, and 
Rwanda, Uganda. We built those partnerships so that we don't 
have to spend as much.
    And the last thing I will say, yeah, it is perfectly okay 
to push our allies that they need to contribute more, but if 
you are pushing them in a way that sort of implies that they 
are not even allies anymore, you know, then they are not going 
to contribute more and they are going to go their own way. So 
we have to maintain those relationships even as we try to get 
more out of them.
    With that, I will yield back.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Jones is recognized for 5 minutes.
    Mr. Jones. Mr. Chairman, thank you very much, and Mr. 
Hadley and Madam Secretary, thank you for being here today. 
Thank you for what you have done for our Nation.
    I represent the Third District of North Carolina, the home 
of Camp Lejeune Marine Base. I have a great relationship with 
Marines who are active duty as well as Marines who are now 
retired.
    I bring up this issue because every time experts like you, 
I mean that most sincerely, testify, it is always the bottom 
line is revenues, whether it be a foreign policy decision or a 
military decision. What has disappointed me as a Member of 
Congress for 22 years, and I go back, Mr. Hadley, when Mr. Bush 
went into Iraq, is the fact that we in Congress never seem to 
be willing to debate and review a policy.
    I am looking at Afghanistan. We have wasted I don't know 
how many billions of dollars in Afghanistan. I don't know what 
we have to show for it. Mr. Karzai right now is reaching out to 
the Russians trying to get the Russians to come back and meet 
with the Taliban, our enemy. Now we know that the Chinese want 
to put military troops in Afghanistan.
    My concern is that we, in Congress, after 16 years, have 
never had another debate on the floor of the House. I am not 
talking about the committees of jurisdiction, which this would 
be one of them, but the American people who pay the bills, I 
think we owe them, based on our constitutional responsibility, 
after 16 years, to review where we are in Afghanistan.
    I met with Mr. Royal. I wrote a letter to Ash--excuse me, 
yes, to Ash Carter, who is now out of office, several months 
ago when I read an article in the Washington Post that we have 
been paying 200,000 Afghan soldiers that don't even exist. They 
called them ghost soldiers. I got a very nice letter back of 
what they want to do to correct it and met with Mr. Royal.
    What I got from my conversation with Mr. Royal--who I have 
a great respect for, he worked for Jesse Helms--is the fact 
that if these other countries have a presence in Afghanistan, 
we need a presence.
    I said: Mr. Royal, does that mean if my neighbor next door 
bought a Cadillac and my wife and I can't afford a Cadillac 
that I need to buy a Cadillac so I can compete, so I have got 
the same thing my neighbor has? So where in the world, how 
would you tell us in Congress, is it right that we should 
review, after a period of time, because of the financial cost 
and the cost of limbs and blood? What is your opinion to my 
rambling?
    Mr. Hadley. I would say amen. I think you are right. And 
one of the things we say and we have it at the conclusion of 
our written statement is we think the Congress of the United 
States and the committee needs to get more involved in the 
front end about this whole issue of America's role in the 
world.
    Do we still support a revised and revitalized international 
order? What should be our strategy in the Middle East now that 
we have been at this for, you know, 15 years or so? And we 
believe very strongly that Congress needs to come forward and 
lead a national debate on these issues, and we suggest some 
ways to do it.
    So I think you are absolutely right. I would say one word 
at the beginning. You talk about revenues. The one word we have 
not talked about here in this issue of the budgetary problem is 
economic growth. You know, a way to get revenues is not to 
raise taxes. It is also to get the economy growing and 
expanding, and that produces revenues. So part of this strategy 
that we are talking about has got to be to get this economy 
growing in a more robust rate.
    Mr. Jones. Thank you.
    Madam Secretary.
    Secretary Albright. I really agree in terms of the fact 
that there needs to be a national debate, but I also do think 
that Congress has to step up in some terms, in terms of asking 
for reviews earlier and being a part of it and not thinking 
that once the authorization has been given that you just kind 
of say, okay, and pony up the money. I think there need to be 
regular reviews of various of our missions in places and to 
really be a partner.
    My whole public life has been involved in terms of 
executive-legislative relationships. It is the most interesting 
part of our government, but that does mean that you are--well, 
you are more than equal partners, and so I think you should be 
asking for the reviews, not just of that but of our other 
military commitments.
    Mr. Jones. Thank you.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman, and thank you for 
inviting such distinguished witnesses that we have today.
    It is nice to see you again, Madam Secretary Albright and 
Mr. Hadley.
    Your testimony today has been a stark reminder of why 
American leadership is needed on the international stage. Given 
the challenges that the world faces, we need strong 
relationships and a strong military, but a whole-of-government 
approach in a coherent strategy is essential.
    I represent Guam, and in Guam we are acutely aware of the 
value of international engagement as many of our closest 
neighbors are foreign nations. Some are friendly and some are 
not so friendly.
    Our strategic objectives will only be achieved in the 
Pacific through inclusive engagement that reflects our values 
and is consistent and clear to our allies and adversaries. 
Pivoting inward is not an option. I also appreciated how you 
noted that we must encourage other world leaders to join us to 
address the challenges before us today.
    It is only through strong partnerships, international rule 
of law, and strength that we can deter aggressive and 
autocratic behavior that threatens our homeland and many 
citizens of the world.
    Now we are starting to see that the administration is 
looking to pursue a national policy that withdraws the U.S. 
from a leadership role, and as you said, wall ourselves off 
from the world, a quote. This in conjunction with the recent 
statement by a senior diplomatic official that the pivot to the 
Pacific is over, though what that means remains to be seen, is 
particularly concerning.
    So Secretary Albright, how would you demonstrate the value 
of investing in diplomacy to the American taxpayer? Everyone 
can see a new fighter or a carrier and understand where their 
tax dollars have gone, but how do you articulate that an 
investment in capacity building has paid off, and why is it not 
enough to have just a strong military?
    Secretary Albright. Thank you very much, Congresswoman. And 
let me just say, Americans don't like the word multilateralism. 
It has too many syllables and it ends in an ism. Mostly we have 
to talk about partnerships and burden sharing and trying to 
explain that we are in this together.
    I do think that it is important to point out to people 
that, in many ways, the State Department budget and our 
diplomats are the front line, that they are there in terms of 
trying to help us work through problems before in fact a 
military involvement is necessary.
    But I have always believed in a very close relationship 
between the military and the civilians, that we do this 
together, and I think that what I have heard that I find so 
interesting, it is the military that believes that we should 
have a strong diplomatic arm and that force and diplomacy go 
together.
    And I do think that we have to show--I mean, it is a little 
hard because sometimes it is the dog that didn't bark, you 
know, things that diplomats have been able to do that don't 
show up. What does happen, though, is if we are going to--and I 
believe we need to strengthen our security relationships in the 
Pacific.
    By the way, I have always said the U.S. is not monogamous, 
we are both an Atlantic and a Pacific power, and we have to 
remember that, and that this is not just a pivot to Asia, that 
is where we belong. And I think that what is very important is 
to be able to show that we have common interest with our Asian 
allies and friends and that part of it is the diplomatic, the 
economic of ties that then underpin what the military is doing.
    Ms. Bordallo. Thank you.
    Mr. Hadley, do you have any views on this?
    Mr. Hadley. You know, one of the things I think we have to 
recognize is that this international order that the United 
States helped build and maintain for 70 years after World War 
II was really an almost an unprecedented experiment for a major 
global power. Most major global powers historically have 
maximized their own value, used their position to maximize 
their own value at the expense of others.
    We had a different concept. We constructed an international 
order that benefitted the prosperity and security of the United 
States but also advanced prosperity, security, and peace 
globally.
    Very unusual in history, but it requires America to 
continue to participate in that because we have that vision. 
Where we don't participate, where vacuums emerge, other people 
come in with different agendas, and you have seen that in Syria 
with the Russians and the like.
    People forget that that international order was created as 
much by American diplomacy as by our military. Crafting those 
set of institutions that were developed after the end of World 
War II, those set of alliances, which have underpinned our 
security and prosperity for the last 70 years, that was the 
work of our military certainly, but it was also a work of very 
skillful American diplomacy, and we are going to need that 
diplomacy going forward if we are going to adapt and revitalize 
that international order.
    Ms. Bordallo. Thank you.
    Thank you very much, and I yield back, Mr. Chairman.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Mr. Hadley, Secretary 
Albright, thank you so much up for joining us today and thanks 
for your leadership.
    Mr. Hadley, I want to begin with you. In reading through 
your joint testimony with Secretary Albright, you mention three 
immediate priorities. First, mitigating human suffering in 
Syria, then recapturing ISIS-held territory, and then 
containing Iran's aggressive foreign policy behavior in the 
region, all important elements.
    You also said there needs to be a greater degree of 
engagement of American and allied interests in the region, both 
diplomatically and militarily. We see today our special 
operations forces working alongside Iraqi Security Forces 
achieving success in Mosul. Eventually they will, I think, 
recapture Mosul from ISIS.
    Two questions. What comes next for the U.S. military after 
Mosul is recaptured? And then what is America's military 
engagement in a post-ISIS Iraq?
    Mr. Hadley. I think the model that you just described is 
the right one, and I think that model probably continues after 
ISIS has been pushed out of Iraq, and that is very much what 
Prime Minister Abadi was talking to President Trump about, some 
residual U.S. presence that can continue to train and stiffen 
the Iraqi forces so that they can maintain this security and 
control over the country that we will help them regain. We 
don't want to leave as we did in 2011. That was not a good 
experience for us, but it has got to be done in a supportive 
role for the Iraqis.
    The real challenge, I think, is going to be whether we will 
then work with the Iraqis as again Prime Minister Abadi said 
yesterday very clearly, we need to follow up pushing ISIS out 
of Iraq with good governance that isn't corrupt, that gets 
economic activity going, that deals with the social needs of 
the people. The question is whether we will, in a supporting 
role with other friends and allies, help the Iraqis take on 
that most difficult piece. If we don't, I think our military 
operation will be in vain because I think the country will fall 
back into sectarian violence and being--opening the door for 
the terrorists. That is, I think, the real challenge, and that 
is going to be as hard, if not harder than the military issue.
    Mr. Wittman. Mr. Hadley, I agree. I appreciate that 
perspective.
    Secretary Albright, I wanted to ask you in a little bit 
different perspective, and I know in the joint statement, 
article that you and Mr. Hadley put out, you said that a 
bipartisan approach in the Middle East would begin by insisting 
that the bulk of the vision, effort, and resources come from 
the country themselves, from the people within the country.
    As we look at Syria and we look past where some sort of 
security can be gained in Syria, the question then becomes 
governance. Where does that go? What do we see in that region 
where we see a tremendous amount of effort by Iran to influence 
Syria? And when you have that, what happens with current 
leadership? What happens in places like Aleppo and Damascus 
when we are looking to engage them, when we are looking at a 
post-ISIS Syria and the role that the U.S. has but there may be 
affinities towards Iran or other influences in the area, how do 
we assure governance? How do we assure that that takes place in 
a proper way? We have seen in the past that those things 
haven't turned out necessarily well in the aftermath of the 
U.S. gaining security. Give me your perspective on how you see 
that shaping up.
    Secretary Albright. Well, there clearly has to be a 
political settlement. The military has created an environment 
that makes it possible to think about moving out the bad guys, 
but we really do need to figure out a political settlement, 
which requires the parties that have been involved to be a part 
of it.
    I have now been in a lot of different meetings where people 
talk about the possibility of having Syria kind of divided into 
a number of zones that would reflect who is in them at the 
time. I personally think that Assad has lost any legitimacy to 
run the government in any shape or form because he kills his 
own people, but I do think that there are probably some people 
around him that can be part of a transition government.
    I do think that part of what has to happen is to engage 
those countries that have been involved and explain or work 
with them and put pressure on them diplomatically in order to 
come along with a political settlement, but this is 
unbelievably hard. And I think what is interesting is to put 
yours and Congressman Jones' ideas together in terms we have 
been in Afghanistan too long. Steve just said we left Iraq too 
soon. And so we can't not pay attention, but I do think that 
the reconstruction efforts are important in Syria as well as in 
Iraq, but there has to be a political settlement, which is 
where the diplomats really come in. But the level of difficulty 
is as high as anything that I have ever seen.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman. Thank you, Secretary 
Albright and Mr. Hadley. It is truly refreshing to hear you 
both speak.
    Secretary Mattis, when he met with us, made it very clear 
that he thought that the Secretary of State and foreign aid was 
critical to our national security. So he gets it. But the OMB 
[Office of Management and Budget] director said, when the 
budget was issued, that the budget seeks to reduce or end 
direct funding for international organizations whose missions 
do not substantially advance U.S. foreign policy interests, are 
duplicative, or are not well managed. Funding for the United 
Nations and affiliated agencies, including peacekeeping 
organizations, foreign military assistance programs, support 
for multilateral development banks such as the World Bank, 
economic and development assistance, and international, 
educational, and cultural exchange programs would be 
specifically affected.
    Can I have your thoughts on those cuts and what damage, if 
any, they will do?
    Secretary Albright. I think they are so stunningly damaging 
to America's position that I find it hard to believe that 
somebody that is in the U.S. Government could even suggest 
them, if I could put it bluntly. And let me say that I do think 
that the role that international organizations have played 
generally in the wellbeing of this system that has been set up 
have to be recognized.
    But let me just say I was Ambassador of the United Nations 
[U.N.]. I do know that it needs some reforms. It is very hard 
for us to have influence in reforming if we are the ones that 
are creating a financial crisis there and you lose your 
influence. If you go off the Human Rights Council, you lose 
your influence in terms of being able to explain who needs to 
be doing what in terms of projecting our values.
    So the bottom line is we are cutting off our nose to spite 
our face if we decide that we are not going to be involved in 
any of these aspects, and they also play to what Steve and I 
have been talking about in this report, is I never--soft power, 
nobody likes that term anymore, but in terms of other issues 
that help to create an environment where terrorists don't 
prosper.
    And so we are--they are not--I teach a course on the 
national security toolbox. There are not a lot of tools in it, 
and if we decide that we are not going to fund half of them, 
then we have lowered the possibilities of the United States, 
our national interests being met in these countries or in these 
organizations. We need to have an influence there, and we need 
to be able to work.
    I know when during the Clinton administration, when we were 
behind in our bills and I was trying to get reform at the U.N., 
our best friends, the British, delivered a line they had waited 
more than 200 years to deliver: representation without 
taxation. And so if we are going to play a role there, we have 
to be players there, and we have to use our influence in them 
by being members of it.
    Ms. Speier. Thank you.
    Mr. Hadley.
    Mr. Hadley. I think this distinction between soft power and 
hard power is not a good one because a lot of our soft power 
converts into real hard power. I will give you an example. I 
chair the board of the U.S. Institute of Peace [USIP], one of 
19 organizations that were destined to be disestablished in 
this budgetary framework. The U.S.--just as an example, USIP 
has been in Iraq since 2003. We never left in all the hard 
times Iraq went through. Training local people who could 
negotiate peace among the tribes and bring violence down.
    So for example, in 2007, USIP in Mahmudiya Province, the 
triangle of death, negotiated an arrangement among the tribes 
to accept the U.S. military presence there. Violence went down 
dramatically. The U.S. military presence was able to reduce by 
80 percent. It saved a lot of lives, it saved a lot of dollars, 
and that basic peace agreement among the tribes has held up for 
10 years. Now that is how soft power can contribute to higher 
powered tasks in a way that saves lives and saves money.
    Ms. Speier. Thank you.
    Mr. Hadley. It is crazy how----
    Ms. Speier. I want to try and get one more question in.
    Mr. Tillerson, our Secretary of State, just announced that 
he is not going to NATO [North Atlantic Treaty Organization]. 
He is instead going to meet with the President of China and 
then move to Russia and meet with Vladimir Putin. What does 
that--what kind of signal is that saying to our NATO friends?
    Secretary Albright. I think it is a most unfortunate 
signal. I would blame it on schedulers, and I do think that 
that is part of the problem. He will have met with a lot of the 
ministers in other venues, but given the discussion that is 
going on about NATO, I think that it is an unfortunate 
scheduling problem.
    Ms. Speier. Thank you.
    The Chairman. The gentlelady's time is expired.
    Mr. Hadley, I will just observe, soft power can also be a 
lot more effective if it is backed up by military power, so it 
goes both ways.
    Mr. Hadley. No, I think they are complements, and we need 
to think of them as complements and really integrated 
complements of each other.
    The Chairman. Yeah.
    Mr. Hadley. But I agree that diplomacy without a military 
backup is fantasy.
    The Chairman. Yeah.
    Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman, and I want to thank you 
both for being here, sir, and your wisdom and experience. I 
would like to ask you a question on North Korea. It seems to me 
the policy has not worked in previous administrations, but I 
think the banking sanctions we had a while back were effective.
    What would you recommend for the current President on our 
way ahead, because we have a very unstable country and unstable 
leader. He has killed two generals that I know of with cannons, 
killed his half brother, we think he has 10 nuclear weapons, 
and it is obviously very worrisome to many of us, so thank you.
    Secretary Albright. Well, I believe that we need to really 
look in that toolbox and that there are a lot of different 
kinds of sanctions that can be put on that in fact really make 
sure that they aren't shipping their material out, that they 
can't get things in. I think the banking sanctions were very 
important and that we have learned a lot about how sanctions 
can be kind of parsed in a way that they affect, even the smart 
sanctions, the targeted sanctions that really have to be looked 
at.
    We also do have to get the Chinese to be more helpful on 
it, and I think that Secretary Tillerson was really working 
that issue as best he could, and it has a lot to do with the 
kind of strength that we maintain in the region.
    And so I think it has to be a full court press that as 
Secretary Tillerson said there is no option off the table. But 
I do think that the sanctions regimes are the ones that need to 
be really looked at very carefully and be very tight.
    Mr. Hadley. I agree with that.
    I think, look, two administrations, the Clinton 
administration and then the Bush administration, tried and 
reached agreements with North Korea to give up their nuclear 
weapons, and neither administration was able to keep North 
Korea in either of those agreements. So negotiations beginning 
where we are now don't look particularly attractive.
    I think, as Madeleine says, we have now more sophisticated 
ways to put financial pressure on North Korea; we ought to be 
doing those. I think we also use--need to build up a little bit 
of our hard power, if you were, not the offensive hard power, 
but I think we need to enhance deterrents and capabilities to 
deal with a ballistic missile threat from North Korea to us, to 
our friends and our allies. I also think we need to do things 
to reduce the threat North Korea can pose to Seoul through its 
rocket attacks and the like.
    If we do these things, I think it both will increase 
pressure on North Korea in the event it is possible to reach a 
negotiated solution, but if it is not, it will put us in a 
position to be able to deter and defend against North Korean 
capacities as they mature.
    Mr. Bacon. Thank you.
    One more question on NATO. I was stationed at Ramstein for 
3 years, part of the NATO team. But we saw the combat parts of 
the Army withdrawn, and now they have a rotating unit. And we 
see very little--just a little bit of Navy power there. A lot 
of our Air Force units have been withdrawn; it is probably 
about half of what it was.
    What do you think the future is there? I think we should be 
putting more deterrence forces there to make a statement, 
especially after what we are seeing with Putin. I would love to 
have your thoughts on that.
    Secretary Albright. I do think that we need to relook. We 
have been sending some forces and our allies into the Baltics 
and into Poland and kind of relooking at what has to be done. I 
think the defense missile activities there are very important.
    I also do think--I spent some time at the Munich Security 
Conference talking to various defense ministers from the 
Scandinavian countries, and they are very worried about what 
the Russians are doing in terms of buzzing their ships and kind 
of looking at what the naval aspect of this is, in addition to 
what they are doing in following airplanes around.
    So I think it has become an all-force kind of activity and 
that we need to work with our NATO allies on the military part 
of this.
    Mr. Hadley. I agree.
    Mr. Bacon. Well, thank you for your feedback.
    And, Mr. Chairman, I yield back.
    The Chairman. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    I wanted to ask you specifically about governance. One of 
the things that we talk a lot about on this committee is 
ungoverned spaces and how that can be breeding grounds for 
radicalism around the world.
    Do you think that within the State Department we need an 
agency whose mission is first and foremost nation-building? And 
I know that USAID [United States Agency for International 
Development] does some of that, but if you look at USAID and 
everything that they do, nation-building and governance, you 
know, is kind of far down on their list.
    And what I mean specifically by this is that you hire 
people who have a specialty and a background in governance, so 
we can get some of these places where we see this radicalism 
forming up and go in there and start working with them at the 
very beginning before it gets out of control and have people 
that really know how to do this thing, and then let some of the 
other things that USAID is doing, let those things take care of 
themselves after they understand the basic fundamentals of 
governance.
    And I would love your opinion on that.
    Secretary Albright. I do think that governance is 
absolutely essential. And let me just say, I am chairman of the 
board of the National Democratic Institute that is part of the 
Endowment for Democracy that has been going on now for 35 
years. It is in countries in partnership there with people in 
order to work on governance issues at a local level, trying to 
also strengthen the legislative branches within, rule of law, a 
number of different things. Works often with USAID.
    The State Department does have a section that works on 
democracy and issues. Nation-building has kind of become a 
four-letter word. I do think, however, it is very important to 
think about what happens at the local levels so that people--by 
the way, I actually believe we are all the same, that we want 
to be able to make decisions about our own lives, and that 
people need to have help in the nuts and bolts of governance, 
of how they make their points. And it goes also with economic 
development, because governance has to deliver. People want to 
vote and eat.
    And so the bottom line is there has to be some outside 
organizations--NDI [National Democratic Institute], USIP Steve 
has spoken about--that are kind of--help funded by the U.S. 
Government and operate with those people that are in both the 
State Department and USAID.
    Mr. Hadley. I think you are exactly right. That is the 
priority. Our report on the Middle East says basically it is a 
crisis of governance and the failure of governance that created 
disaffected populations, which were then very susceptible to 
the siren call of the extremists.
    The problem is helping countries get good governance is 
hard. We have been at it a long time in Iraq and Afghanistan 
with mixed success. We have to do some lessons learned, figure 
out what works, what doesn't work. Corruption is a huge threat 
in these places, in these fragile states, in these early 
democracies. We don't really have a good formula for going 
after and rooting out systemic corruption.
    And, finally, you know, not every government is willing to 
do the things required to provide good governance to their 
people, and we have to triage a little bit and work with those 
governments that get it.
    It is one of the things we talked about in our report, 
about more for more. We ought to be saying, if you are willing 
to do the right things for your people, to invest in them, in 
their education, provide good governance, we will help you. It 
will be a good investment for a future of stability and peace. 
But if governments are not willing to do that, we shouldn't 
throw our money at them. So we are going to have to be tough-
minded on it.
    But it is a really tough problem. It needs to be more a 
priority. But we don't have--you know, we don't have the silver 
bullets for helping to provide, you know, noncorrupt, good 
governance to these fragile states.
    Mr. Veasey. Thank you.
    And one last question. Speaking of ungoverned territories, 
I would like for you to just briefly characterize what you 
think America's role should be in helping in places on the 
continent of Africa. Because I am very worried about just some 
of the, you know, early stages of radicalism that seem to be 
there. It is not as bad as it is in the Middle East, but it is 
certainly a growing threat there. And I wanted to know what you 
thought about America's role in that continent.
    Mr. Hadley. You know, one of the problems with, as we 
talked earlier, the budgetary framework is it not only 
overlooks what some of these agencies can do with our military 
to bring peace in conflict zones, but it overlooks the role 
these agencies play in preventive, in taking countries as--and 
helping countries, as in Africa, which have ethnic divisions, 
are under enormous pressure economically from climate change 
and other things, and helping them stabilize their societies 
and not let conflicts in the society become violent conflicts, 
with all the consequences for refugees and suffering and the 
like.
    Those preventive tools avoid our need to use the military 
end strength down the road when a fragile state has become a 
conflict state. We underinvest in those at our peril.
    Secretary Albright. Can I just have 1 minute on this?
    I just was in Germany, and I went to visit the headquarters 
of AFRICOM [United States Africa Command]. It is a very 
interesting command because it not only has its military job 
but it also does a lot of civilian activities with a civilian 
deputy. And I think it is a very interesting model in terms of 
how the military and the diplomats can work together.
    They are operating in a number of African countries. They 
have a base in Djibouti, but they also are able to kind of 
combine--I think it is an interesting model to be looked at for 
some of the commands.
    Mr. Veasey. Thank you.
    The Chairman. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    Secretary Albright, Mr. Hadley, thank you for being here. 
Thank you for your service to our country.
    Secretary Albright, as the father of three daughters, thank 
you for the example that you provide to young women about how 
they can impact--substantially have an impact on our world.
    And my first question is for you. I appreciate your 
emphatic opposition to the President's proposed budget cuts to 
diplomatic programs at large. But can you talk more 
specifically about the cuts to foreign military financing, what 
that would do? Maybe give us either anecdotal or real examples 
of what those cuts would cost, if those budget cuts were 
enacted.
    Secretary Albright. I have been very troubled by them, 
actually, because it is a way to have influence over the 
militaries in a number of different countries in terms of some 
of the training that we do with them, also the IMET 
[International Military Education and Training] programs in 
terms of having a relationship with militaries in other 
countries, and then having--I think it is useful sometimes to 
condition the assistance in a way to them for behavioral--I 
mean, we use tools in order to change the behavior of X of a 
country. And I do think that the FMS [foreign military sales] 
programs really do help in that, in terms of the interaction 
between our military and the militaries in other countries, the 
training that comes from that, the relationships, also the 
movement in terms of joint procurement on a number of issues.
    So I think cutting those is very dangerous also, because 
they are--I like talking about the use-of-force tool, and it 
has a lot of different gradations beyond just the size and 
character of our military and the number of technology--the 
equipment that we have. Some of it has a lot to do with the 
relationships that are established by our military. And that is 
where the FMS and IMET really come in.
    Mr. Banks. Thank you.
    Mr. Hadley, switching gears a little bit, you served for 
President Bush during the last time that we passed an 
authorization of military force in 2001 and 2002 against Al 
Qaeda, the perpetrators of 9/11, and then Iraq in 2002.
    Last week, I joined Senator Todd Young, also from Indiana, 
in calling for a new AUMF [authorization for the use of 
military force] that would specifically identify ISIS as a 
target of that resolution. I wonder if you could comment on 
that.
    In heeding your call for Congress to be more active and 
heed your call of your recommendations in both of your 
testimonies today, could you comment specifically on whether or 
not you view there to be a benefit from a new authorization of 
military force?
    Mr. Hadley. I do. I think it would be a good thing. I think 
the American people need to know that the Congress of the 
United States is behind this effort that the administration is 
trying to mount.
    So I think it is important both as a symbol of a national 
commitment to deal with this problem, but it is also important 
to rebalance a little bit this relationship between the 
Congress and the President.
    You know, in time of national crisis, power tends to move 
towards the Presidency, and it is important, once the immediate 
crisis is over, for that rebalance to be established. That is 
what we need, I think, to be doing now.
    Mr. Banks. Secretary Albright, do you have any comments on 
that as well?
    Secretary Albright. I do believe that there needs to be a 
new AUMF, partially because it is needed but partially also 
because of the discussion.
    I fully agree with Steve. This is an Article I time. And 
you are the representatives of the people, and it has to be 
really a discussion so that people understand why--to answer 
some of the questions about why has Afghanistan taken so long, 
or general discussion but focused on the AUMF, I think, makes a 
big difference.
    Mr. Banks. Thank you.
    I yield back.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    At the time that we were fighting for and winning this 
international world order that we have been talking about 
today, we were also building many of the military installations 
throughout this country to support that, including many in 
Texas.
    I was just at Dyess Air Force Base this weekend, and they 
are operating out of airplane hangars for B-1 bombers that were 
built 70 years ago. And to go inspect one of the B-1 bombers, 
you actually had to wear a hardhat because there are pieces of 
rebar that are falling from the ceiling.
    You look at Fort Hood, and there are hundreds of millions 
of dollars in deferred maintenance costs that we haven't paid 
for and are just going to become more expensive the longer we 
defer them. Billions of dollars just in the State of Texas 
alone.
    When you add to that this AUMF authorized in 2001 that has 
not only been used to fight wars in Afghanistan, where we still 
are today, but has been used in five other countries as well, 
including Iraq and Syria, Libya, Somalia, and Yemen, the needs 
that we have, the wars that we are currently fighting, the 
projected costs to meet the threats that will come, none of 
that seems sustainable to me. And I think the ranking member 
used the word ``fantasy,'' that we are going to be able to pay 
for and meet all the commitments that we have identified.
    And when asked to help us make the tough choices, you have 
talked about cutting entitlements; we have talked about raising 
revenues, raising taxes. And I wonder, though, is there not a 
tougher choice to be made about this world order and whether, 
70-plus years in, it is sustainable and should not be 
rethought.
    It doesn't mean we stop being an indispensable country, 
because I agree with the Secretary's conclusion on that. And it 
doesn't mean that we have the leading role. But I don't know 
that this trajectory is sustainable or that we should want to 
sustain it.
    And I join Mr. Banks, Mr. Jones, and others and the two of 
you who have called for a new AUMF. I think that is part of 
this. But can you talk about some bigger, tougher international 
choices that we have to make? Or--and this is a conclusion that 
a reasonable mind could come to--must we just muddle on along 
this current path and do the best that we can?
    Secretary Albright. Let me say, I do think that we have to 
look at it from the perspective of what threatens the United 
States. It is the job of the President to protect our people, 
our territory, and our way of life. And it is the job of 
Congress to be a part of that discussion, to fund it, to have 
discussions about it, and to be a part of the decision of how 
to protect our people.
    I happen to believe that our people are most threatened 
when there are various disasters happening, whether they are 
terrorists or whether they are climate change or whether they 
are people starving or whether they are refugees who are coming 
and have become a part of a complicated political situation.
    So I do think that we have a stake in not just thinking 
about ourselves, that our security depends on what is happening 
in other parts of the world.
    I think that one of the answers here is to develop the 
partners, the alliances. And I think the alliance structure is 
something that has to be made to work, and the others have to 
pay their fair share. We also need to think about how to 
develop those forces in other countries that can help us, 
whether they are those that work on the governance issues or on 
various military issues.
    We cannot operate in the world alone. And so that is the 
part that I think we have to work on and decide that we are not 
safer if we are isolated. An isolationist America is the most 
dangerous thing for Americans as well as for the world.
    Mr. O'Rourke. Mr. Hadley.
    Mr. Hadley. Well, one--I will probably get myself in a 
little trouble on this one, but one of the things about the 
infrastructure that you talk about is we have more 
infrastructure than we need, given the size of our current 
military. And, you know, the BRAC [base realignment and 
closure] process, I haven't followed it as closely as I 
probably should; it seems to have broken down.
    And one of the difficult issues is that Congress is going 
to have to both hold the administration's feet to the fire in 
terms of strategy and prioritization, but Congress is also 
going to have to make some tough decisions about allowing for 
this infrastructure to shrink to the size of what we really 
need given the military we have today.
    I think Madeleine would agree, the current conception of 
the international order is not sustainable. That is why we say 
it needs to be revised and revitalized. We may have made huge 
investments in helping Europe, Japan, South Korea emerge to be 
the healthy, prosperous societies they are. We helped China 
integrate into the international system. We have seen the 
growth of India. These countries need to be given a greater 
role to play in the international system. But that, of course, 
comes with some responsibilities, and part of that 
responsibility is not only responsible action and constructive 
action but also to foot some of the bill.
    So I think there has to be a readjustment and a 
rebalancing, a look at division of labor and division of 
responsibilities. But if we step out from that process and do 
not lead it, an international order that will emerge in the 
traditional way--which is, it will benefit the big powers, like 
Russia and China, at the expense of the little powers--that is 
not the international order that we want, it is not the 
international order that is in our interest, and it is not an 
international order that will provide enduring peace and 
security.
    Mr. O'Rourke. I yield back.
    The Chairman. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Madam Secretary, Mr. Hadley, thank you for being here.
    I want to turn back to the Middle East for a moment and the 
situation with Israel and the PLO [Palestine Liberation 
Organization]. Do you think it is an equal problem with 
politics and economics or it is one more than another?
    Secretary Albright. I think, actually, it has a lot to do 
with both, and the economics part, I think, primarily on the 
Palestinian side, in terms of questions as to how they are able 
to function in a very difficult situation and feed their own 
people and various aspects to do with that in terms of trying 
to get more help in terms of them. And I do believe in a two-
state solution. And they need to begin--this is my view--to 
create some of the institutional structures that would provide 
for their people.
    And, politically, it really is a problem in terms of the 
various--it is as difficult a political situation as many of us 
have seen, because the Palestinians do not have any--they are 
divided among themselves between the Fatah and the Palestinian 
Authority and Hamas and various problems, and, therefore, it is 
hard for them to look at it in some way that doesn't then look 
threatening to the Israelis.
    Mr. LoBiondo. Well, let me just follow up for a minute. I 
agree with you. But it seems to me, on the economic problem, 
that a lot of the younger Palestinians that don't have much 
hope for the future because they don't have jobs, it is easy to 
recruit into some bad behavior; jobs would be something that 
would be very helpful there, yes?
    Secretary Albright. Yes, very much. And let me just say----
    Mr. LoBiondo. Okay. So let me----
    Secretary Albright. Sorry.
    Mr. LoBiondo. Excuse me for interrupting. I don't want to 
lose my chain of thought, which I tend to do sometimes.
    So how much have the wealthy Arab nations contributed to 
job creation? Everybody wants to blame Israel for the problem 
there. Now, maybe I haven't followed this as closely as I 
should have, but I am curious, do you know if they have? And if 
they haven't, why aren't they being held accountable? They have 
money for everything. Why wouldn't they help out Palestinians 
in this effort?
    Secretary Albright. I have to say I have also been 
surprised about the lack of effort there. I do think that there 
is beginning to be more of a sense among some of the Arab 
nations that they have a greater responsibility. But I do think 
that is one of the questions, in terms of why they have not 
done more.
    The other part, though, is that we are trying--I am 
involved in something called the Middle East Investment 
Initiative that is backed by OPIC [Overseas Private Investment 
Corporation]. OPIC is another one of the agencies that is about 
to be cut. So, in terms of trying to figure out how we get 
economic assistance in there and then use it as a magnet so 
that the Arabs help more.
    Mr. LoBiondo. Yeah. Well, it seems to me that the wealthy 
Arab nations could in a heartbeat help turn this around.
    Mr. Hadley, what are your thoughts on this?
    Mr. Hadley. I agree. And it was a source of frustration 
when I was national security advisor and when Salam Fayyad was 
Prime Minister of the Palestinian Authority. He was trying to 
build noncorrupt, good-governance institutions in the 
Palestinian territories. It was a very hopeful thing. And I 
would go around trying to encourage our Arab friends and allies 
to support him, and they would dole out money in a teaspoon. 
And I think it was a huge strategic blunder on their part.
    But I think it has to be two things. I think the 
Palestinians need to get back to building noncorrupt 
governance, helping build the institutions of a Palestinian 
state even before they have one. And the more they will do 
themselves, the more we can press Israel to support it and the 
Arab states to support it. It needs to be the two.
    But I think the Arab states have largely been very 
shortsighted about this and very stingy.
    Mr. LoBiondo. Well, I totally agree. I appreciate your 
response. And I just that think everyone is very quick to 
condemn Israel for all the problems with the Palestinians, when 
there are solutions that could be helpful that the Arab nations 
are either choosing not to--which makes me wonder a little bit 
about the whole situation.
    But I yield back, Mr. Chairman. Thank you.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    Thank you both for being here. It is an honor to have you 
before us. And the example of bipartisanship that you set is 
one that we would do well to follow.
    Recently, Vice Chairman [of the Joint Chiefs of Staff] 
Selva confirmed that Russia is in direct violation of the INF 
Treaty, the Intermediate-Range Nuclear Forces. What should be 
our response?
    Secretary Albright. I happen to believe that we are not 
using a tool here, in terms of taking an examination of what 
they have done. We should call them on it, and we have not 
really been doing that.
    And it is clear that it is contributing to additional 
problems in terms of the deployment, what it does to create a 
sense of unease in Central and Eastern Europe among the 
Baltics.
    And then the Russians blame us for tit-for-tat, but the 
bottom line is they haven't--from what I have seen, they have 
been violating it, especially up in Kaliningrad. And so it is 
one of the things that we have to--we should call them on it.
    Mr. Hadley. I think Putin is a great opportunist. He looks 
at vacuums and seizes opportunities and then kind of sees what 
happens. And if he succeeds and if he is not resisted, he then 
does a little bit more. And if he continues to succeed, is not 
resisted, he does a little bit more.
    So when he--whether it is in terms of agreements, whether 
it is in terms of destabilizing his neighbors, whether it is in 
terms of his own force buildup, we need to match him, not just 
by calling him on it, but also taking concrete steps to counter 
the benefit that he thinks he achieves by these actions and 
then some, so that, in fact, he pays a price.
    So we have to counter in our diplomacy, we need to call him 
on it, but I think what we need to look at what we need to do 
to counter the capability so that it does not--not only does it 
not produce an advantage for him, but it actually results in 
the situation being worse. I think that is the only way you are 
going to deter this kind of behavior.
    Ms. Moulton. And do you have any specific suggestions, Mr. 
Hadley, as to how we can increase the price for Mr. Putin?
    Mr. Hadley. Well, one of the things we could do is in terms 
of missile defense and make it clear that, you know, we are 
able to counter that cruise missile capability and deploy 
against it if need be. That is one.
    But, again, this is the task I would then give General 
Mattis. So how do we counter this? Deprive it of military 
utility and impose a price.
    Mr. Moulton. If your analysis of Mr. Putin is correct, 
which is consistent with other experts that I have heard on 
Russia, then, given his interest in interfering in our 
elections, if we do not have a robust, bipartisan response to 
that, what would you expect him to do?
    Mr. Hadley. He will do more of it. I mean, this was the 
testimony that the Congress heard yesterday. And, certainly, we 
need to figure out what was done and have a political, 
diplomatic response.
    But, you know, the thing that I feel is lost in this debate 
is the old ``fool me once, shame on you; fool me twice, shame 
on me.'' If we do not mobilize to harden our electoral 
infrastructure to make sure that it is safe and impervious to 
cyber penetrations, whether by Russia or anybody else, shame on 
us. We should never be in a position where we have this concern 
that an outside power could manipulate our electoral process.
    Mr. Moulton. Thank you.
    Madam Secretary.
    Secretary Albright. Well, I think that we have to remember 
that he is a KGB [Committee for State Security] agent and 
somebody that knows how to use propaganda and knows how to play 
what I would say is a weak hand in a very strong way. And while 
it is sad that we have to kind of return to the kind of 
language that we used during the Cold War, I think we have to 
be more vigilant.
    And we have to build--I happen to agree with what NATO has 
been doing, in terms of moving forces around and showing our 
willingness. I obviously agree on the missile defense system. 
But I also think that we have to understand that he has one 
goal, which is to disaggregate what is the European Union, that 
they really do not want that to exist. That cannot be our goal 
so that we are helping him on that. We have to keep the 
sanctions on. We have to use every tool that we have and 
recognize that we have the strength to do something about it.
    And I think that it is always hard in diplomacy in terms of 
finding the areas where you can agree--because there are some 
areas on the Middle East that we have been doing things 
together--and then find the areas where we have to push back. 
And we have not done that enough. And so I think we need to be 
tough and recognize what has been going on here.
    Mr. Moulton. Thank you, Mr. Chairman. I yield back.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    And I thank you both for being here. It is very refreshing 
to hear from you. In a lot of ways, when you sit in front of 
this committee, you are preaching to the choir on so many 
issues. And it is, how do we get that sphere of influence to, 
in particular, other Members of Congress, but the American 
public as well?
    You know, I couldn't agree with you more on so many of the 
things you have said. It is a perfect time for this 
conversation, I believe, with a new Congress, a new 
administration. But we need to really define, I believe, what 
our strategy is and what our principles are and then work in 
the right direction. Rather than making a strategy based on a 
budget, we make a budget based on a strategy.
    And I think, as you have heard from a few veterans here 
today, and we have our conversations, you are spot-on. Military 
itself is not the answer, and diplomacy is key. Because we 
would much rather not have to go to war. And once we are in 
war, as an extension of politics for whatever reason--or, 
hopefully, it is because our national security is threatened--
civil affairs can't do it all. That is not the long-term 
answer. So all of these tools--economic, et cetera--we have to 
continue to use.
    As we seek for more funding in the areas that we agree 
with, that you do need more in State [Department] than is being 
proposed, in my opinion--how we use it is, of course, part of 
it as well--I guess the trick is getting other people on board, 
right? Because people may say, yeah, we want increases, but 
then they are not necessarily willing to talk about how we need 
to get increases to those areas.
    Mandatory spending 50 years ago was at 34 percent; now it 
is 68. When I am out talking to people in the public, they 
think military is in mandatory spending. They have no idea how 
this works. And we just can't keep doing this and squeezing, 
squeezing, squeezing discretionary spending unless we embrace 
the mandatory spending component. Our debt going on the rise, 
and it is just money going out the door.
    I think, you know, you touched on some things. Economic 
growth is important. But we've got to address all of these, and 
we've got to make the case to the American people. I consider 
it a situation where we need you out there talking about this. 
Because we are in somewhat a World War II-type state, where the 
world is in a volatile position and things are breaking down 
all over, and we need all of America to come together to 
address where we need to be.
    And I guess, you know, my question is, how can we drive 
this conversation? I hope more Americans have a chance to 
listen to the two of you when you are out talking about these 
issues. But how in Congress can we help drive this a little bit 
further and do it on a bipartisan basis like you are doing?
    Secretary Albright. We don't have any problems talking. 
And----
    Dr. Wenstrup. Keep going.
    Secretary Albright [continuing]. We have spent a lot of 
time together, and I think we present a pretty good picture. I 
do think we need to get out, but maybe there is some way that 
we could have, kind of, common sorties out, in terms of where 
some of us would go with some of you to your districts to talk 
about it and really explain.
    And then I do think--I hate to bring this up, but the media 
has to be brought into it. They have to be willing to do more 
than take sound bites and to really have capable discussions 
and try to figure out how to use the social media in something 
other than tweets. And so using the new information technology 
to get information out in some way.
    The Russians are really good at trying--this is part of 
what was going on, in terms of their capability of using 
propaganda. We have to figure out how to tell the truth to our 
people and also get foreigners mobilized with us.
    Dr. Wenstrup. Thank you.
    Mr. Hadley. We do talk, but we are disadvantaged in talking 
to the American people because I am either part of the blob, if 
you are an Obama person, or part of the swamp, if you are a 
Trump person. And that disadvantages me, if not disqualifies 
me, from talking to the American people.
    We are here because you have to talk to the American 
people. You actually know how to talk to the American people. 
That is why you are elected and sitting here. I don't. So I 
think this is a conversation that you have to lead in your 
districts.
    And if I could suggest one thing, it is a new media 
environment. I mean, when President Trump is tweeting to his 16 
million folks during the Comey hearing and Members of Congress 
are reading the tweets and turning them into questions, this is 
a new media environment.
    And one of the challenges, I think, for you is how does the 
Congress use this new technology and figure out how to better 
communicate with the American people. Because we are still 
using 20th-century approaches.
    Thank you.
    Dr. Wenstrup. Thank you very much.
    The Chairman. Mr. McEachin.
    Mr. McEachin. Thank you, Mr. Chairman.
    And I want to thank both of you all for your testimony 
today and helping us struggle with some of these issues.
    I have been a Congressman since January 2nd--or January 
3rd, excuse me, and so my experience and my expertise is not 
very much at this point. And so what I want to do with you all 
today is just briefly test some assumptions that I am working 
under and see if you all agree or disagree with those 
assumptions.
    One of those assumptions I think I learned in economics 
101, or it might have been political science 101, which is 
this: One does not do two things, go to war and cut taxes, at 
the same time.
    Assuming, without conceding--because you don't have to 
concede this point for me yet--that we are at war, is this the 
time for us to be engaging in tax cuts?
    Secretary Albright. Well, we are in a certain kind of war, 
I think, in a lot of different areas. Certainly, thinking about 
places that could explode even more, I happen to think it is 
not a time for tax cuts.
    Mr. Hadley. I think the challenge we have, if we are going 
to play the role we need to play in the world, is we need to 
fix a lot of what is broken here at home. One is that we have 
to show that our politics can actually, on a bipartisan basis, 
solve some of the problems we face.
    I think we also need to get our economy growing. We are 
going to be in this struggle against terrorism for a long time. 
I think we need to get the economy going. I am no economist. 
People say that tax cuts are a way to get the economy going. I 
don't know the answer to that. It has worked in the past.
    But I think what we need is, to play our role in the world, 
we have to have a robust economy, we need to show that our 
politics can work and solve our social problems, and we need to 
fix our brand.
    We have been an example that democracy and free markets 
brings prosperity and peace. People are beginning to wonder 
about that. Our brand is in disrepair. And I think we don't fix 
it until we get our economy fixed and, quite frankly, get our 
politics fixed and then go to the world and--one, to the 
American people and say, the model still works, and then we can 
make a case that, by our engagement in the world, we are an 
example worth following.
    Mr. McEachin. Well, Mr. Hadley, let me explore what you 
just said for just a moment, when you say that tax cuts can 
cause the economy to grow, although, admittedly, you did 
confess that you are not an economist----
    Mr. Hadley. Yep.
    Mr. McEachin [continuing]. And neither am I. But is it not 
the case that, during the Bush years, the most recent Bush 
years, President Bush decided to do away with the Clinton tax 
increases, essentially absorb the surplus, put us into a 
deficit, and went to war at the same time, and that is at least 
part of the reason why we are struggling with our economy 
today?
    Mr. Hadley. Well, you know, I will try on the history on 
this.
    The tax cuts, the Bush tax cuts, I think the people around 
President Bush believe that it produced a fairly sustained 
period of economic growth and job growth. We did, of course, 
hit the wall in the 2008 recession.
    Second, we decided that, in order to maintain that growth, 
we would not increase tax cuts. The judgments that were made 
was that the deficits that we were running were manageable. And 
how much of the Clinton-era surplus was real and how much it 
was a paper surplus, I don't know.
    Those were the judgments that were made. A lot of those 
went out the window after the 2008 financial and economic 
crisis. That is my understanding of the legacy during the Bush 
period.
    Mr. McEachin. Let me switch to another assumption that we 
are working under. As I understand it, our national defense 
policy is predicated upon being able to--and this is my 
paraphrasing, so forgive me if it is inartful--being able to 
fight two major conflicts simultaneously. That seems to make 
some sense to me. And that then leads you to make certain 
policy decisions, if you buy into that base assumption.
    My question for the two of you all is: Is that a good 
assumption in today's political climate, or should we be 
operating under a different set of assumptions? That is, should 
we really be prepared to fight two major wars simultaneously?
    Secretary Albright. Let me just say President Obama, in the 
national security strategy that he put forward and the various 
Defense Department documents on this, moved away from that two-
and-a-half-war strategy and said that what we are going to have 
to do is look at a lot of different kinds of conflicts, that 
they are mixed.
    And so, therefore, I think in terms of looking at the 
defense budget generally and the foreign affairs budget, it is 
harder, in many ways, because the conflicts are of a variety. 
Some of them are asymmetrical. We have now seen Russia putting 
much more pressure on. And we don't know exactly what the 
Chinese are doing.
    And so moving away specifically from the two and a half 
doesn't mean that we don't have to think about larger 
conflicts, but, in fact, there are a variety of conflicts that 
have to be dealt with that make this much harder for you and 
for explaining it to the American people.
    Mr. McEachin. My time has expired. I yield back. And I 
thank you both.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, Secretary Albright, Mr. Hadley.
    Secretary Albright, as a woman who was in the military, I 
just want to say thank you for breaking through barriers and 
the example that you were as a pioneer for all of us.
    And I want to thank you for something in particular. This 
is the first time I have met you, so you probably don't know 
this, but in 1995 I started a bit of a battle within the 
military related to then making our American troops wear the 
full abaya and headscarf in Saudi Arabia. And about 4\1/2\ 
years into this, you don't know it, but you went to Saudi 
Arabia and didn't put it on, and that put a little boost into 
my step for the fight that I had.
    Eventually, we got legislation passed to overturn it, and 
many State Department individuals there at the Embassy were 
with me and cheering for me as I put my career on the line to 
fight this fight.
    But, again, you didn't know it, and I just wanted to tell 
you now I really appreciated your example of being a strong 
leader with grace but not, you know, conforming with seventh-
century norms, from my view. And I appreciate your example on 
that.
    I was at AFRICOM--you mentioned it previously--as part of 
the initial team to stand it up. And we had a lot of great 
expectations for the different kind of command that it was 
going to be, with a civilian deputy and all that kind of 
integrated stuff. But, in reality, we still operate, authorize, 
and fund through our stovepipes of the agencies.
    The civilian deputy was helpful. Certainly, most people, my 
colleagues don't realize that, when we do building partnership 
capacity, where the military is training our partners, that is 
title 22 State Department money. That is not money that we 
authorize here; it is not part of the defense bill. That is 
critical for us when we are doing prevention activities. But 
that is all funded through the State Department, even though 
you look at military operators there.
    But, you know, there is a lot of discussion about we need a 
Goldwater-Nichols 2.0, we need to reorganize to have sort of 
the three D's [development, defense, and diplomacy] more 
integrated in how we operate. You know, none of that really 
moved in any direction.
    I just want your thoughts about some of those discussions 
of further integrating across the board between these agencies 
that are all critical for our international security.
    Secretary Albright. Well, thank you very much for your 
service. I have always admired our military and the women in 
it, so thank you very much.
    I do think that what needs to be looked at more is how--not 
even talking about the money at the moment--how the State 
Department and the Defense Department work together.
    I think that what has happened since 2000 is that a lot of 
State Department activities were transferred to the Pentagon, 
partially because we were at war. And so one of the questions, 
no matter what, is: What is the job of the State Department, 
and under what circumstances do they do it, and how do they 
cooperate? So that, I think, does need to be looked at.
    I also do think that the funding of it is obviously very 
important, in terms of where the money is also brings some of 
the influence in creating the strategy. But it has to be 
relooked at. Because it is very hard often--and you see it in 
the AFRICOM thing--of how to separate what is a military 
activity and what is a purely civilian one. What happens if 
there are security issues about how the civilian operators are 
able to work in a dangerous atmosphere; then how AFRICOM, for 
instance, works with peacekeeping operations. There are so many 
new things that need to be looked at.
    But I was fascinated by, kind of, a step forward that it 
had taken in terms of how the command structures work. But I 
think this requires a major discussion both inside the 
government and also on the outside and Congress' role in it.
    Ms. McSally. Thank you.
    And I will just say--Mr. Hadley, I would like to hear your 
thoughts. I mean, we had great hopes for how that was going to 
play itself out. In reality, it helped us kind of better 
understand the different tribes and the different roles and 
maybe coordinate a little better. But, in reality, the deputy 
there from the State Department didn't really have any 
authorities within the State Department, just had 
relationships. And it was, like, a lot of basically liaison 
officers. It helped educate us so that we could better 
understand better courses of action, but, really, those 
stovepipes and those tribes remain.
    So, Mr. Hadley, any thoughts----
    Secretary Albright. Can I just add one thing?
    Ms. McSally. Yes.
    Secretary Albright. There were criticisms of it that, in 
fact, it militarized democracy, kind of, activities, when I 
think there actually is a way to make it cooperative.
    Ms. McSally. Great.
    Mr. Hadley, any thoughts?
    Mr. Hadley. Yeah, I think we are in a--a need for a 
strategic relook. And, you know, two conventional wars, that 
was an idea that came 15, 20 years ago, and for the last 15 
years, we have been fighting nonconventional wars. I don't know 
if it makes any sense. This integration the chairman talked 
about, you talked about, of the State and Defense, the 
nonmilitary and the military, how do we do that, we need to 
relook at it again.
    I think what we really need--and I would hope this Congress 
and committee would take the lead--is a step-back look. What is 
the context in which we are operating? What are our assumptions 
about the world that we face? What is our strategy then for 
achieving our objectives in that context? Then, you know, what 
are the implementing policies we need? And then what is the 
organization we need to fit that strategy? And then how do you 
resource it in a way that is sensible?
    We need a strategic relook, given the 15 years we have been 
through. And now is a good time to do it, with the new Congress 
and new administration.
    Ms. McSally. Great. Thank you.
    I am over my time.
    The Chairman. Ms. Rosen.
    Ms. Rosen. Thank you, Mr. Chairman, Ranking Member Smith.
    And I thank you so much for being here today and your 
thoughtful and experienced answers. It is really wonderful.
    So I want to go back to yesterday's confirmation from 
Director Comey that the Trump campaign is under investigation 
for possible Russian collusion and that President Trump's 
claims of wiretapping are indeed false.
    Can you tell me how you see that that impacts U.S. 
credibility in the world, Secretary Albright?
    Secretary Albright. I think it raises a lot of questions 
with our friends and allies in terms of how we operate. But I 
think that they have been critical of some of the ways that we 
have been doing things, and it plays into a whole theory about 
what is this administration about.
    I think the hearings and everything are going to go on a 
while. It is a little hard to figure out where they are going 
to go. But I do think the testimony yesterday really spoke for 
itself, and I think it will have an effect in the way that we 
are viewed, since we see ourselves as a country that operates 
by the rule of law.
    Ms. Rosen. And do you think that will jeopardize our 
security and the willingness especially of our NATO allies to 
work with us?
    Secretary Albright. I think not so much that, but I do 
think some of the issues in terms of our issues already with 
the British intelligence community. And a lot of sharing 
intelligence and things is based on trust, and so I think that 
is going to have to be rebuilt through the various Cabinet 
Secretaries.
    Mr. Hadley. Look, there is--Director Comey said the 
investigation is ongoing. We need to let the investigation run 
its course and see what it yields. We need to get to the bottom 
of these allegations, no doubt about it.
    I think it is manageable with our allies. We shock our 
allies quite frequently these days, over the last decade or 
two, and I think it will survive.
    But I think we have to recognize that, while we need to get 
to the bottom of this, it is a huge distraction from real 
issues that the administration and the Congress need to 
address. It is taking a lot of oxygen out of the system. And we 
have to get to the bottom of it, but we are going to pay a 
price, because it is distracting us from real work that needs 
to be done.
    Ms. Rosen. Thank you. I appreciate your answers.
    And I yield back my time.
    The Chairman. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    And thank you both for being here.
    Stephen, in your history review, you left out the impact 
that the collapse of the dot-com era had on the economy and 
those make-believe or fictitious surpluses that were projected 
at that point in time. So just add that to your narrative next 
time that you get a chance to answer that question.
    I am intrigued by this idea that it is time to redo, kind 
of, the strategy, the world order, whatever the phraseology is, 
you know, that we have enjoyed for 70 years. That one was done 
in the face of the Soviet Union being on the other side, and 
its acolytes were a part of that, and it was successful 
throughout that timeframe.
    As we set the new one--you mentioned a couple of new 
emerging powers, India and China--how would we do that, with 
Russia in effect taking the Soviet Union's place as a force on 
the other side; China, who is operating outside the rule of 
law, particularly in the South China Sea and the things that 
they are doing, the mischief that they are creating around and 
the things that are going on, their lack of impact on North 
Korea, other things.
    India certainly would be--the world's largest democracy 
would be one that you would think would join some sort of an 
order that the United States would be the leader of or be of 
significant impact on it.
    Can we do that? We did it once with the Soviets. Can we do 
it again, with adding both the Chinese and the Russians out 
there, versus what the rest of the world would be trying to do? 
Can you walk us--your thoughts on that? Both of you, please.
    Mr. Hadley. Yeah. I think Russia is going to be very tough. 
I think Russia really has convinced itself that this 
international order was just a fig-leaf cover for advancing 
American interests at everybody else's expense. I think that is 
wrong analysis, but I think that is their analysis.
    China, on the other, is more ambivalent. The Chinese I have 
talked to understand that China has benefited enormously by 
participating in that international system for the last 30 
years, in terms of its prosperity and the like. So I think they 
would be loathe to overturn it, but they do want a role in it. 
They want a role in setting the rules.
    And that is why it was important, I think, that we finally 
agreed to the change in the IMF [International Monetary Fund] 
rules that gave China, for example, more votes and more of a 
role. I know it will be controversial.
    I would do things--I would try to send China the signal 
that they can be at the table in revising and revitalizing this 
order if they play in a responsible way. I would, for example, 
have had us join the Asian Infrastructure Investment Bank that 
they proposed. Why? Because I want to make sure that it is 
really used to encourage development of the neighborhood and 
not just to extend China's influence. The best way to do that 
is for us, our friends and allies, to be a part of it and 
condition it. And it would send the message to China that, if 
they have ideas for revising and revitalizing the international 
order, great, we are willing to participate.
    I think China we can still bring into a revitalized order, 
and I think very much India we can do so. So I am hopeful that 
we can pull this off, but it is a challenge.
    Mr. Conaway. Madam Albright.
    Secretary Albright. I do think it is worth really giving it 
some larger thought, because the post-World War II era was 
totally different, as was the post-Cold War era. And the 
question is, to what extent does one bring these countries in 
in order to have a discussion where they don't like the fact 
that we are deciding what the order is?
    I mean, I heard that an awful lot from the Russians after 
the end of the Cold War, that we didn't respect them enough. It 
is hard to respect them when they, in fact, are, you know, 
taking over pieces of countries and threatening them with cyber 
activities.
    The Chinese themselves never felt that they were part of 
the post-World War II order. That was the Nationalist 
government, not the Communist one. And so the question is 
whether we really would have the energy and the interest to 
resummon something like Bretton Woods agreements, I mean, 
really begin to look at things in a very large way.
    I do think that the way the world is--besides, the United 
States doesn't want to run the world. We prefer to have 
partners in it. And so, as an academic, I think it would be 
kind of--or track two, to begin to think about some different 
world order here where we ask the others to be participants in 
creating it.
    At the moment, we are not in that position. We are 
deterring Russia, and we are trying to figure out what China's 
role is, as they now say that they are more liberal, 
capitalistic, and are moving into a vacuum that we have left.
    So there are real problems that are out there, but I think, 
as an academic practitioner, I think it would be interesting to 
see whether there is some way to have a new conference on a new 
world order.
    Mr. Conaway. Thank you for your thoughts. I appreciate it.
    I yield back.
    The Chairman. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    And thank you both for being here.
    I have been a member of this committee for 6 years, and the 
conversation has obviously changed quite a bit. But what I am 
concerned about--we were looking at the state of readiness for 
our military all the way through this era. But what I am really 
concerned about is that our domestic tax policies absolutely 
conflict with our military needs or our perceived military 
needs and our role around the world.
    You know, this is tax season, and so I am seeing ads, 
``Cheat Uncle Sam legally.'' You know, ``Here is a way to avoid 
paying a single penny.'' And I feel that people don't 
understand that if we are going to fulfill our responsibilities 
that we have to look at that side too, that we can't ignore the 
fact that we have to pay for this, we can't continue to drive 
up our debt.
    And this is a challenge that is not just here for this 
committee and not just for Congress but, actually, around the 
world.
    But shifting--I just had to say that this has been, you 
know, an issue for me and certainly all of us who try to figure 
out how to pay for what we need and to make sure that we stay 
strong.
    But shifting, I know, Mr. Hadley, that you said that we 
need to do a strategic relook with this administration. But 
this administration has given us all pause and concern.
    We take a look at former National Security Advisor Flynn, 
who didn't register as a foreign agent, who clearly was very 
close to Putin and to others. And we see others--and we see the 
President's family with financial ties, and we don't know what 
they are.
    I don't feel confident that there is going to be another 
strategic relook from this administration. So I think it falls 
on the rest of us to be talking about these issues.
    And I have been briefed a number of times about this, but 
here is what I want to ask both of you: What is going to be the 
right response?
    We know that Russia has been active in Europe, and we know 
that they have had the same kind of propaganda tools and 
efforts in, like, Brexit and also in elections for democracies, 
countries that are democracies. And so we are sitting there 
looking outward and then back inward because of our own 
problems, and I see Russia very engaged in other people's 
elections, not just ours.
    So what is our proper response?
    And, Secretary Albright, you talked about using some tools, 
but what tools do we have? I mean, I turn on television, you 
know, in a hotel, and there is Russian television sending out a 
propaganda message all the time.
    So could you expand on that? And how much do we alert the 
world about their engagement--you know, Putin's engagement, 
literally, throughout democracies in Europe?
    Secretary Albright. I think we need to think about how we 
reengage in terms of pressing our values system and explaining 
who we are. And we used to have a system through Radio Free 
Europe and a variety of radios, Voice of America. And I think 
we need to begin to rethink again what public diplomacy is 
about. It is not propaganda. It is actually telling the truth. 
Propaganda is not telling the truth. And I think that we need 
to figure out how to expand our voice and how to make clear to 
the American people that it is worth spending the money on it, 
frankly. That is part of the problem.
    Russia, today, is a very clever mechanism. They are 
actually doing a lot of broadcasting around the United States, 
and there are Americans, Larry King, for instance, who 
participate in it. It is a propaganda machine. And I think the 
bottom line is we need to figure out how to get our voice out 
there again.
    I think the main thing that we have to think about is how 
to explain to the American people that our safety and security 
depends on a different--that we can't wall ourselves off from 
things, that we have to be a part of this, and that what Putin 
wants more than anything is to have our democracy be so 
confused that we don't pay any attention to what he is doing, 
and he just keeps kind of moving into the vacuum and pushing 
there.
    And so we can't allow the vacuum to exist, and we need to 
go back to some of the public diplomacy methods that we have 
developed.
    Ms. Shea-Porter. Thank you.
    Mr. Hadley.
    Mr. Hadley. I agree with that.
    I think in terms of what Putin is doing in elections, we 
have to expose it, particularly in Europe. We need to shame him 
for it. And then, hopefully, the Europeans will show in their 
response that they are willing to stand up to it, and he will 
conclude that, actually, his interference made it worse for him 
rather than better.
    But we have to recognize that Russia is trying to discredit 
democracy and discredit our system of government through fake 
news and faux think tanks. And we need to expose that, and then 
we need to push back by exporting truth. We used to be in the 
business of exporting truth. We need to get back into it.
    Look, the administration did tap in to some nerve of the 
American people, some discontent of the American people, and it 
needs to be addressed. There are Cabinet Secretaries, I think, 
who can be participants in this process. But I think the 
strategic relook, I would like to see Congress take the lead, 
and I think you can get a response from the administration. But 
I think it would be good for Congress to lead this one.
    Ms. Shea-Porter. Thank you.
    I yield back.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    And thank you to both of our witnesses.
    Secretary Albright, it is an honor to meet you for the 
first time.
    And, Mr. Hadley, it is great to see you. You are a great 
friend and served as such a role model in the Bush 
administration.
    I wanted to pick up on the line of questioning that some of 
my colleagues asked.
    When we consider this strategic relook and the context in 
which we operate, in a 21st-century global construct, what has 
changed over my lifetime and in even over the past 5 years is 
the use of technology. And this is tied in to Ms. Shea-Porter's 
questions. We have seen Russia increasingly utilize hybrid 
warfare through propaganda, through influence campaigns, 
through shaping media coverage.
    Do you assess that we are adequately prepared to counter 
that propaganda by exporting the truth?
    Secretary Albright. I don't think we are. You would think 
that we would be ahead in this particular aspect, but we have 
not, I think, taken advantage enough of the great innovative 
spirit of Americans and somehow link it to what the needs of 
the government are.
    And, in fact, that relationship between the government and 
the private sector on this, I think, is a very complicated one 
that needs to be explored in a way that it doesn't put 
censorship in but does, in fact, create a better tool out of 
it. I am not an expert on this, but there is some missing piece 
here that we have not in fact taken advantage of.
    Ms. Stefanik. So that is what I am interested in. I chair 
the Emerging Threats and Capabilities Subcommittee, and we have 
hosted a number of roundtables and hearings on this threat of 
hybrid warfare and what steps we need to take to adequately 
counter it.
    We used to have a U.S. Information Agency. Currently, 
today, we have what is called the Global Engagement Center 
within the Department of State.
    I would like to get your guidance as to what specific steps 
we should be taking in the short term in this Congress and then 
in the longer term.
    Mr. Hadley. So I think you have it exactly right. It is 
ironic that both the terrorists and extremists and the 
authoritarians like Russia are taking technology that we 
innovated and produced and using it to beat us in the public 
space every single day, day in, day out. We have to counter it.
    And I think what your subcommittee can do--there are a lot 
of views of some people that, well, we need to go back to what 
we did in the Cold War. But the context has changed, and the 
technology has changed. And the question is, can we use that in 
an innovative way to get out ahead of it?
    For example, there was an article in the press that said 
that there are broadcasts now being made against the Lord's 
Army in Central Africa, this gruesome group that has been 
kidnapping children and sex slaves and all the rest for 15 
years, broadcasting statements by members of that group from 
their family asking them to go home, and flying over the 
territory where they operate and broadcasting these messages. 
And it is having the effect; people are leaving the Lord's 
Resistance Army and going back to their villages. That is the 
kind of innovative thing that we ought to be doing.
    And I think what we need to do is not restore what we had 
in the Cold War but figure out how we can leapfrog and use the 
technology in a creative way to do the exporting of truth in a 
more effective way, more effective than actually the 
authoritarians and the extremists.
    I don't know the solution, but your subcommittee could 
really bring in the witnesses to develop a toolkit for 21st-
century information operations, if you will.
    Ms. Stefanik. One of the pieces of feedback we have heard 
is a challenge when you have a whole-of-government approach 
with multiple agencies engaged is the pace of the 24/7 news 
cycle and the fact that, at any given moment, a tweet can come 
out and that is heard around the world.
    How do we structure an agency, whether it is the Global 
Engagement Center or something else, that is able to overcome 
just the pace of how information works in the 21st century?
    Secretary Albright. I think it is very hard.
    And, basically, let me just say on USIA [United States 
Information Agency], I am the one that had it abolished, 
because Senator Helms had suggested it, but it also made sense 
in terms of bringing it more into the Department instead of 
something that was just so independent that it couldn't react 
in a way or have something to do with what our overall policies 
were.
    So I do think that there needs to be some way that the 
departments themselves are involved in it. Definitely should 
not go back to Cold War, because different technology exists. 
But I think that the hardest part is the rapidity of the 
information and how it is dealt with. And I am surprised that 
we have not developed our technology enough to deal with that.
    But, also, because we have a free press, it makes it harder 
than--I mean, Russia today, it is a part of their government, 
and so they are able to direct what it is supposed to do.
    But I think you are on the right track. I would be very 
happy to be involved in discussions with you if it is helpful.
    Ms. Stefanik. Thank you. And my time has expired, but I 
will follow up. Thanks.
    The Chairman. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    And thank you, Mr. Hadley and Secretary Albright.
    I want to talk about your joint memo. Because I think your 
joint memo is telling us very clearly, if we would read it 
carefully, that, though Secretary Albright has said she doesn't 
like isms, isolationism is a major force that we are going to 
have to deal with.
    And, in addition to that, the whole concept of the 
international order, which we can't sustain, but, 
notwithstanding, something that has effectively worked for 70 
years, is something that we all have to look at.
    And you, of course, conclude by saying that Congress has to 
start a national debate regarding America's role in the world. 
And you take that to the continued references by Secretary 
Albright throughout these hearings today about Article I, 
section 8, which is Congress' role.
    Having said all of that, the concern that I have is that 
there is probably no stronger policy statement than what the 
budget represents and, of course, what the appropriations are. 
We have almost a schizophrenic, in my opinion, statement, which 
is an increase in defense of 10 percent, which is about $54 
billion, which represents, of course, the need to raise the--or 
ignore sequestration; a cut in the non-defense categories, 
which, of course, includes State. And how can you have both? To 
me, it is like you can have isolationism with an increase in 
defense, depending on where it goes. But you can also augment 
isolationism by simply refusing to fund State.
    And by doing the both, I think that what I am concerned 
about is, we can talk about these different points, but the 
overarching theme in all of this seems to be, from your paper, 
that we have hit a critical crossroads, and we have to decide 
it, and you have tasked Congress with saying, okay, go out 
there and have this discussion. I am not sure that Congress can 
have this discussion effectively if our budget posture or our 
policy statement is really as schizophrenic as I see it.
    So what I would like to hear from the both of you is 
whether or not I have misread what you are saying. Because it 
seems to me that this is a very critical point that we are at. 
And I would like both of you to comment, if you will.
    Mr. Hadley. I don't think you have misread us. I think what 
you have pointed out is we have some strategic confusion going 
on, and we have started with a budget before we have a clearly 
articulated strategy. And what we are saying and what the 
chairman was saying earlier, we have to go the other direction. 
We have to start with a strategy, and then we can use it to set 
our budget priorities. But we are doing it--we got it just 
reversed. And it results in exactly the kind of inconsistency 
you were talking about. So I think you read us absolutely 
right.
    Secretary Albright. I am fascinated that you asked it that 
particular way, because the thing is, we have been working on 
this Middle East Strategy Task Force for about a year. We had 
no idea who the next President was going to be.
    What we had said was that our approach to the Middle East 
had been, kind of, Band-Aids and fire drills and that we really 
needed to take a much deeper look at the Middle East in terms 
of what was happening internationally, in terms of what was in 
our U.S. national interest. We looked at various things of 
trying to create a regional organization so that it wasn't just 
us giving money to the Middle East. There were green shoots 
there that needed to be supported.
    President Trump got elected, and the budget debate, all of 
a sudden, was put in on top of it. So it made it look more 
schizophrenic than our initial plan, which is an example of the 
fact that if something is considered only from the budget 
perspective, to let the budget drive the strategy is the 
problem.
    And the question--and I think you have raised it in a right 
way--is now how we bring this together. Because our approach to 
here was: The defense clearly had to be, we had a part on that, 
and we talked about standby forces, but we also talked about 
the need of what the State Department provides, which is to 
make sure that there is not an environment that creates the 
terrorists and disequilibrium everywhere.
    But I think we are at a breakpoint in the way that the 
international system works. We need to see this as an 
opportunity to really think through what needs to be done in 
the future. It is a huge time for this, and I think that we 
welcome your role in it and would love to play a part in it.
    Ms. Hanabusa. Thank you.
    Mr. Chairman, I yield back, and thank you very much.
    The Chairman. Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman, for your patience in 
allowing every member on the committee to ask a question.
    Secretary Albright, Mr. Hadley, thank you for your service.
    A few days ago, Senator McCain said of Senator Rand Paul 
that he was working for Vladimir Putin. And this is because of 
Senator Paul's principled opposition to Montenegro being part 
of NATO.
    Given our country's own history with McCarthyism, are you 
concerned about that kind of rhetoric from senior political 
leaders and its potential to fan another Cold War?
    Secretary Albright. I have to say that what makes me sad is 
about the lack of discussion that has gone on, the civility of 
how we talk to each other and how we recognize that we are 
entitled to have different opinions.
    And in my testimony that I gave here, I talked about not 
having been born in this country. And, Mr. Chairman, you spoke 
about what an incredible country it is. And I love to go to 
naturalization ceremonies. And I can't swear people in because 
I am not an officer of the law, but I can give them their 
naturalization certificate. And, all of a sudden, I heard this 
person say, ``Oh, my God, can you imagine a refugee got a 
naturalization certificate from the Secretary of State?'' And I 
said, ``Can you imagine that a refugee is the Secretary of 
State?''
    And what this country has been about is civil discourse and 
the capability of understanding each other's differences. And 
so, while it may feel good at a particular moment to be nasty 
to somebody, it doesn't prove where we are.
    And I do think that, given the discussion here today, we 
are recognizing more and more that we are at some kind of a 
turning point in the world system.
    And if I may just throw in some other large issue, the 
social contract is broken. That is what taxes are about. People 
gave up their individual rights in order to be protected by a 
government and to have services. We are not talking about that. 
Who owes what to whom? And that is the basic discussion that we 
should be having.
    And I do think that having a discourse where we respect 
each other's differences is what has to happen.
    Mr. Hadley. And that is why we would like the Congress and, 
in particular, this committee, which has a tradition of 
bipartisanship, to be leading this national dialogue, not just 
in Washington but out in the country, so that the country can 
see that Republicans and Democrats in this Congress and in this 
committee can deal with each other with mutual respect and 
civility and have a substantive conversation on issues that 
really matter for the peace and security of the country.
    So our view is we would like to do it on the merits, but we 
would also like to do it to model a model of right behavior in 
front of the American people.
    Mr. Khanna. I appreciate those responses.
    And, Secretary Albright, I of course have great admiration 
for your story and your career.
    To this point, though, of civil disagreement, you know, 
Secretary Perry had a different view on NATO, and he had said 
that he thought that the NATO expansion should be slower than 
it was.
    Do you both, having seen the last 20 years, think there is 
anything we could have done to have avoided the confrontation 
we now have with Russia or anything we can do going forward?
    Secretary Albright. I think that a mistake was made at the 
end of the Cold War when we said that we had won the Cold War. 
They lost the Cold War. And that is not just a semantic 
difference. The system failed.
    The Clinton administration was in office when we did the 
first tranche of NATO expansion. It was the right thing to do 
because these countries wanted to be part of a European system. 
And it was not against Russia. And I specifically spoke to 
President Yeltsin, and I said, this is not against you, and, at 
some point, you might be able to be members as part of a new 
system.
    And what has happened is I think that Putin has 
deliberately tried to figure out how to make sure that it is 
viewed as a threat to them, when it was never set up in the 
post-Cold War period as a threat to them. So I don't think we 
have done anything wrong. I think that Putin needs an enemy, 
and that is what he has been doing.
    Mr. Khanna. I yield back my time.
    The Chairman. If you all will indulge me with one last 
question.
    Madam Secretary, we started talking about your story, and I 
think about the World War II experience, how that shaped this 
country. The Cold War experience has helped shape our 
institutions and our approaches to things.
    I believe more than two-thirds of the Congress was not in 
office on 9/11. So you think about memory and events that shape 
us, but yet you have these students coming through your 
classroom all the time. What is your reflection on their view 
of the world, and how do they see things?
    Secretary Albright. I think that they are actually a very 
forward-looking group of young people who have an understanding 
that they need to acquire the knowledge to deal with a 
completely different world.
    I do have to say that when I tell stories about the Clinton 
administration it is a little bit like teaching about Napoleon. 
And so the, kind of, memories that they have don't exist. They 
have come up in a very different era. And the way that they see 
things a lot, in terms of technology, what can be done.
    I teach at Georgetown in the School of Foreign Service. So 
that is a very--it has a lot of foreign students in it, which, 
by the way, if I may say, is one of the strengths of our 
university systems, is that they are able to have foreign 
students. And what troubles me about the ban and various 
aspects of it is that colleges are now wondering if the foreign 
students can come in and if they can stay. And it will be a 
loss to our students in terms of specifically the question you 
asked. Because the next generation is going to deal in a world 
where we will, in fact, be dealing with a number of different 
countries, number of different ethnic and religious groups 
within an international system, and my students very much want 
to be a part of things.
    I have to admit we are having a little bit of a hard time 
this semester, because I teach about decision making, and I can 
talk about what decision making--I do talk about the Bush 
administration and about the Obama administration. And I tell 
my students, you have to decide now for yourselves how the 
decision-making process is working.
    But they are very eager. And if I might just say, over the 
weekend, we do a role-play, and we are dealing with North 
Korea. So I will let you know what we come up with.
    The Chairman. We are looking for answers, that is for sure.
    Mr. Hadley, do you have any reflections on collective 
memory in our future?
    Mr. Hadley. It is one of the problems--I was talking to 
some Europeans--Europe has, because the young people in Europe 
have no recollection, of course, of World War II and that 
history in the first half of the 20th century. So they don't 
know really why the EU [European Union] came about.
    And I think we have the same problem in the United States. 
We have generations of people who have taken the international 
order for granted, don't understand how it came to be and what 
value it has provided.
    So there is a huge educational role, which, again, is why 
we come back to a national debate that you folks would lead.
    The Chairman. Okay. I took your charge. I understand.
    Thank you all very much, not only for being here today but 
for, both of you, your continuing involvement in the affairs of 
the country.
    The hearing stands adjourned.
    [Whereupon, at 12:22 p.m., the committee was adjourned.]

     
=======================================================================


                            A P P E N D I X

                             March 21, 2017
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 21, 2017

=======================================================================

      
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 21, 2017

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. U.S. leadership abroad in this day and age depends 
not only on our ability to defend ourselves from physical attack, but 
also from cyberattack. Combating the challenges posed by cyber is a 
global problem and is impossible to do alone. Developing acceptable 
behavior in cyberspace can improve stability and provide a foundation 
for international action when those norms are violated. How can we 
promote like-minded countries working together to advance international 
norms and responsible behaviors in cyberspace? Have actions the United 
States has taken--such as the response to the Russian interference in 
our presidential elections--been helpful in that regard?
    Secretary Albright and Mr. Hadley. We would like to extend our 
thanks once again for the opportunity to testify before you and your 
colleagues on the House Committee on Armed Services on March 21, 2017. 
We were grateful for your time, for your thoughtful questions, and for 
the spirit of bipartisanship in which you received us.
    We have received the questions for the record that you have 
submitted to us. While we share your interest in these important 
issues, we regret that we are not well positioned to provide answers. 
Many of the questions deal with government programs with which we have 
not been directly associated for years since leaving government. An 
administration witness may be a better source of information. We would 
be delighted to discuss other issues raised in the hearing with you at 
any time.
    We are deeply appreciative of the Congress's role in helping to 
craft American foreign policy at this unsettled global time, and we 
once again thank you and the Committee for your efforts on behalf of 
our country.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. How would you propose we should counter North Korean 
and Chinese aggression in the Pacific region? North Korea is in the 
news lately and their continued missile tests are a significant concern 
and have garnered a lot of attention. At the same time China continues 
to aggressively pursue their own agenda without any regard to 
international law. In your opinion, how do we address these alarming 
but different threats to the Pacific? How can we employ a whole-of-
government approach that will address both of these threats?
    Secretary Albright and Mr. Hadley. We would like to extend our 
thanks once again for the opportunity to testify before you and your 
colleagues on the House Committee on Armed Services on March 21, 2017. 
We were grateful for your time, for your thoughtful questions, and for 
the spirit of bipartisanship in which you received us.
    We have received the questions for the record that you have 
submitted to us. While we share your interest in these important 
issues, we regret that we are not well positioned to provide answers. 
Many of the questions deal with government programs with which we have 
not been directly associated for years since leaving government. An 
administration witness may be a better source of information. We would 
be delighted to discuss other issues raised in the hearing with you at 
any time.
    We are deeply appreciative of the Congress's role in helping to 
craft American foreign policy at this unsettled global time, and we 
once again thank you and the Committee for your efforts on behalf of 
our country.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. Which country do you believe is our #1 geopolitical foe 
right now?
    Who was our #1 geopolitical foe in 2012?
    Secretary Albright and Mr. Hadley. We would like to extend our 
thanks once again for the opportunity to testify before you and your 
colleagues on the House Committee on Armed Services on March 21, 2017. 
We were grateful for your time, for your thoughtful questions, and for 
the spirit of bipartisanship in which you received us.
    We have received the questions for the record that you have 
submitted to us. While we share your interest in these important 
issues, we regret that we are not well positioned to provide answers. 
Many of the questions deal with government programs with which we have 
not been directly associated for years since leaving government. An 
administration witness may be a better source of information. We would 
be delighted to discuss other issues raised in the hearing with you at 
any time.
    We are deeply appreciative of the Congress's role in helping to 
craft American foreign policy at this unsettled global time, and we 
once again thank you and the Committee for your efforts on behalf of 
our country.
    Mr. Franks. Part 1: Do you believe peoples from religious or ethnic 
minorities who the State Department has officially identified as being 
targeted for genocide should be given preference for being granted 
refugee status and admitted to the United States as refugees?
    --Christians and Yezidis have been officially recognized by the 
State Department as being the target of genocide in Syria and Iraq--the 
Islamic State has specifically targeted them for extermination based 
upon their religious beliefs.
    Part 2: Should Christians and Yezidis fleeing the Islamic State be 
given preference for being granted refugee status and admitted to the 
United States as refugees?
    Secretary Albright and Mr. Hadley. We would like to extend our 
thanks once again for the opportunity to testify before you and your 
colleagues on the House Committee on Armed Services on March 21, 2017. 
We were grateful for your time, for your thoughtful questions, and for 
the spirit of bipartisanship in which you received us.
    We have received the questions for the record that you have 
submitted to us. While we share your interest in these important 
issues, we regret that we are not well positioned to provide answers. 
Many of the questions deal with government programs with which we have 
not been directly associated for years since leaving government. An 
administration witness may be a better source of information. We would 
be delighted to discuss other issues raised in the hearing with you at 
any time.
    We are deeply appreciative of the Congress's role in helping to 
craft American foreign policy at this unsettled global time, and we 
once again thank you and the Committee for your efforts on behalf of 
our country.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
